<html>
<title> - HOW LIMITING INTERNATIONAL VISITOR VISAS HURTS SMALL TOURISM BUSINESS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
 HOW LIMITING INTERNATIONAL VISITOR VISAS HURTS SMALL TOURISM BUSINESS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                     WASHINGTON, DC, JUNE 19, 2002

                               __________

                           Serial No. 107-63

                               __________

         Printed for the use of the Committee on Small Business


                        U.S. GOVERNMENT PRINTING OFFICE
81-127                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON SMALL BUSINESS

                  DONALD MANZULLO, Illinois, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
ROSCOE G. BARTLETT, Maryland             California
FRANK A. LoBIONDO, New Jersey        DANNY K. DAVIS, Illinois
SUE W. KELLY, New York               BILL PASCRELL, Jr., New Jersey
STEVE. CHABOT, Ohio                  DONNA M. CHRISTENSEN, Virgin 
PATRICK J. TOOMEY, Pennsylvania          Islands
JIM DeMINT, South Carolina           ROBERT A. BRADY, Pennsylvania
JOHN R. THUNE, South Dakota          TOM UDALL, New Mexico
MICHAEL PENCE, Indiana               STEPHANIE TUBBS JONES, Ohio
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
DARRELL E. ISSA, California          DAVID D. PHELPS, Illinois
SAM GRAVES, Missouri                 GRACE F. NAPOLITANO, California
EDWARD L. SCHROCK, Virginia          BRIAN BAIRD, Washington
FELIX J. GRUCCI, Jr., New York       MARK UDALL, Colorado
TODD W. AKIN, Missouri               JAMES R. LANGEVIN, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  MIKE ROSS, Arkansas
BILL SHUSTER, Pennsylvania           BRAD CARSON, Oklahoma
                                     ANIBAL ACEVEDO-VILA, Puerto Rico
                      Doug Thomas, Staff Director
                  Phil Eskeland, Deputy Staff Director
                  Michael Day, Minority Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2002....................................     1

                               WITNESSES

Ziglar, Hon. James, Commissioner, Immigration and Naturalization 
  Service, U.S. Justice Department...............................     4
Bush, Hon. John Ellis ``Jeb'', Governor, State of Florida, via 
  videotape......................................................     7
Sullivan, Hon. Thomas, Chief Counsel, Office of Advocacy, U.S. 
  Small Business Administration..................................     9
McDermott, Mark, Director, Arizona Office of Tourism, on behalf 
  of Western States Tourism Policy Council.......................    10
Lewis, John, Retired, former Assistant Director, Federal Bureau 
  of Investigation, National Security Division...................    13
Amrine, Neil, President, Guide Service of Washington, on behalf 
  of the Travel Industry Association of America..................    15
Highfield, Del, Owner, Camping Resort of the Palm Beaches, on 
  behalf of National Association of RV Parks and Campgrounds.....    17
White, Ellen, President, Canadian Snowbird Association...........    19
Hjelle, Mark, Vice President & General Counsel, The Brickman 
  Group, on behalf of American Nursery & Landscape Association...    20

                                APPENDIX

Opening statements:
    Manzullo, Hon. Donald........................................    47
    Velazquez, Hon. Nydia........................................    49
    Jones, Hon. Stephanie Tubbs..................................    55
    Udall, Hon. Tom..............................................    57
Prepared statements:
    Ziglar, Hon. James...........................................    59
    Bush, Hon. John Ellis ``Jeb''................................    68
    Sullivan, Hon. Thomas........................................    70
    McDermott, Mark..............................................    80
    Lewis, John..................................................    87
    Amrine, Neil.................................................    88
    Highfield, Del...............................................    93
    White, Ellen.................................................    97
    Hjelle, Mark.................................................   103
Additional information:
    Federal Register, Vol. 67, No. 71, April 12, 2002............   109
    The Washington Post, Wednesday, June 19, 2002, ``Sept. 11 
      Plot Likely Hatched in '98, Tenet Says'' Page A10..........   114
    Letter to Mrs. Ellen White, Canadian Snowbird Assc. from 
      James Ziglar, U.S. Department of Justice...................   115
    Letter to James Ziglar, U.S. Department of Justice from 
      Chairman Manzullo & Ranking Member Velazquez...............   116
    Letter to James Ziglar, U.S. Department of Justice from 
      Senator Harry Reid.........................................   118
    Letter to James Ziglar, U.S. Department of Justice from 
      Florida Governor Jeb Bush..................................   120
    Letter to Immigration and Naturalization Service from the 
      U.S. Chamber of Commerce...................................   121
    Letter from Jolene Wade, Fountain of Youth Spa RV Resort, 
      California.................................................   127
    Illinois-Canadian trade statistics...........................   128
    New York-Canadian trade statistics...........................   130
    The Washington Times, Tuesday, June 18, 2002; ``Terrorists 
      recruited from U.S. seen as a rising threat,'' Page A3.....   132
    Center for Immigration Studies--Summary table of the 
      immigration status of foreign born terrorists..............   133


 HOW LIMITING INTERNATIONAL VISITOR VISAS HURTS SMALL TOURISM BUSINESS

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:20 a.m. in Room 
2360, Rayburn House Office Building, Hon. Donald Manzullo 
[chairman of the Committee] presiding.
    Chairman Manzullo. The Committee will come to order. Just a 
little bit of information as we wait for Ms. Velazquez. Here 
she is. Good morning. How are you?
    The way the panel is set up, as we do with most of our 
hearings here, it is more for a conversational style. The 
purpose of the hearing is to try to work towards a resolution 
of the topic that is at hand.
    I have advised the Commissioner who is here after traveling 
an entire week that if a question is asked by a Member of 
Congress and he feels more comfortable having a member of his 
staff answer the question because it is technical, then that 
option is totally up to you, Commissioner.
    The purpose is to get as much information out in the best 
source that you have, so if you have to ask someone to come up 
all we ask is that person just introduce themselves and spell 
their name for the record and proceed to answer the question.
    Mr. Ziglar. Thank you, Mr. Chairman.
    Chairman Manzullo. Today the Committee will focus on the 
importance of international tourism to our nation's small 
businesses. Over 25 million overseas visitors came to our 
country in 2000, giving us a trade surplus of $14 billion. Last 
April, the INS proposed a rule to change the automatic default 
period for tourist visas from non-waiver countries from six 
months to 30 days.
    I understand there has been a lot of confusion about this 
proposal. Many media reports say that all visitors would be 
limited to stay in the U.S. for a maximum of 30 days. However, 
the proposal will grant any international visitor from a non-
visa waiver country the time they believe is appropriate to 
visit the U.S. up to six months, provided they can demonstrate 
to an INS immigration inspector a rationale for staying in the 
country for more than 30 days.
    Regardless of this clarification, the proposal may well 
endanger the confidence of foreign travelers desiring to visit 
the U.S. for longer than 30 days. According to an INS fact 
sheet, the new rule will require visitors to, and we quote, 
``explain to an INS immigration inspector the nature and 
purpose of their visit so the inspector can determine the 
appropriate length of stay. While INS inspectors will make 
every effort to determine a fair and reasonable time period, 
the burden of proof rests with the alien. When the time needed 
to accomplish the purpose of the visit cannot be determined, 
INS will grant a 30 day period of admission.''
    The proposed rule itself states that ``where there is any 
ambiguity whether a shorter or longer period of admission would 
be fair and reasonable under the circumstances'' then the visa 
will be issued for 30 days.
    The main justification for this proposal is to fight 
terrorism, obviously an extremely important objective, yet this 
policy change has very little to do with fighting terrorism. In 
yesterday's Washington Times, there was a report about the 
growing threat of terrorist forces recruiting disaffected U.S. 
citizens with passports in order to avoid our immigration laws.
    There must be a better way to accomplish the legitimate 
objectives of the INS without significantly damaging the U.S. 
travel and tourism industry. We certainly need better sharing 
of intelligence data so that our consular officers abroad and 
our immigration inspectors at the border know who to deny entry 
into the United States.
    The INS also claims this rule will not have a significant 
economic impact on a substantial number of small entities 
because this rule only applies to non-immigrant aliens visiting 
the U.S., not to small entities. They also claim this is not a 
major rule that will have an impact on the economy of $100 
million or more. The INS has not provided research or any 
documentation to substantiate this statement made in the 
proposed rule.
    The travel and tourism industry in the U.S. is dominated by 
small businesses. This industry relies heavily on international 
visitors for their livelihood. In 2000, the Commerce Department 
estimated that 939,000 visitors from non-visa waiver countries 
contributed almost $2.1 billion to the U.S. economy. That is a 
significant impact in my book.
    Finally, I have a concern about how our Canadian friends 
will be treated under this new rule. Currently, most Canadians 
crossing our border do not need a passport. They are not given 
anything in paper by our INS immigration inspectors documenting 
how long they are allowed to stay in this country because they 
are automatically assumed to have a default admission period of 
six months. Yet how will this rule affect them?
    While I welcome Homeland Security Director Tim Ridge's 
clarification to deliver a formal notice to Canada saying 
Canadians can still head to the U.S. for up to six months, it 
is also preferable for this to be included in the final rule. 
Canadians have a vested interest in not staying in the U.S. 
beyond six months because otherwise they will lose their health 
insurance and also have to pay U.S. taxes.
    There were nearly 14.6 million arrivals of Canadian 
citizens through our border in 2000. They spent nearly $10 
billion in the U.S., including $162 million in my home state of 
Illinois. How this issue affecting Canadians is resolved is of 
great interest to me. Continued progress on the Smart Border 
plan with our Canadian friends will probably do more to fight 
terrorism than any other initiative.
    I now yield for the purpose of an opening statement to my 
colleague and good friend from the Empire State, Mrs. 
Velazquez.
    [Chairman Manzullo's statement may be found in the 
appendix.]
    Ms. Velazquez. Thank you, Mr. Chairman. Tourism benefits 
American small businesses from shops and charters to airline 
suppliers and concessionaires. It is hard to overestimate the 
influence of this sector. During the last decade, travel and 
tourism became an established leader in a modern services 
economy.
    When counted as an export contribution, travel and tourism 
more than doubled, from $26 billion in 1986 to $90 billion in 
1996. This sector is our number one services export and has 
produced a trade surplus every year since 1989. Here is a 
demonstration of tourism on the local level. In 1996, a record 
46.5 million people visited the United States. Every one spent 
an average of $1,500, including a third on lodging, another 
third on retail and a fifth on food.
    Clearly, international travel to the United States is a 
vital small business export, just like selling software or 
wheat. It boosts our GDP and supports more than one million 
jobs. How the Immigration and Naturalization Service's new 
regulations for tourist visas will affect this vibrantand vital 
sector should concern this Committee.
    After September 11, the INS had to act to protect our 
security. Most of the terrorists involved in the attacks were 
in this country on valid entry visas. In fact, nine of the 19 
known hijackers were in the country on tourist visas. The INS 
rewrote the rules on non-immigrant visas, including tourist 
visas, and the President has proposed to create an entire new 
Department of Homeland Security as part of a broad 
restructuring process. We must not forfeit our oversight and 
duty to stem any unanticipated consequences during this push to 
secure the country against future terrorist attacks.
    We are here to examine the impact of the INS' proposed 
reform of the B-1/B-2 visa procedures. While this move is an 
attempt to address an area of concern, it should not result 
simply in a false sense of security while inconveniencing 
visitors and disrupting our vital and growing small business 
tourism sector.
    It is apparent that the INS has not fully examined or 
anticipated the impacts of these vast changes as required by 
the Regulatory Flexibility Act and SBREFA. The INS must also 
conduct outreach and consider less burdensome regulatory 
alternatives.
    The new regulations eliminate the six month visa and reduce 
most stays to 30 days. This will clearly inconvenience a 
majority of visitors since a 30 day visa means the average 
visitor of 20 days has about a week and a half leeway to make 
their trip. Given that, many potential visitors may simply 
choose somewhere else to go.
    This new policy deters the people we want to visit, those 
who stay the longest and spend their money at small businesses 
across this country. This is the effect that we wish the INS 
would consult with small businesses on before taking.
    With a close look at this regulation, we can increase 
security in the visa process without adversely affecting small 
business. We should also fix a firm time frame to develop new 
rules and ensure predictability for visitors. Most importantly, 
this process cannot be concluded without small business input.
    As in most things, achieving the best balance of all the 
interests involved should be our goal. This Committee needs to 
assert oversight powers now at the very beginning of the effort 
to restructure our government's homeland security 
infrastructure before it becomes too big and unwieldy.
    Thank you, Mr. Chairman.
    [Ms. Velazquez's statement may be found in the appendix.]
    Chairman Manzullo. Thank you. We have in our midst Ron 
Erdman from the Department of Commerce. Ron, where are you?
    Mr. Erdman. Right here in the back.
    Chairman Manzullo. Ron, could you have a seat somewhere up 
front just in case some statistics come up that we need in your 
position as Deputy Director of Travel and Tourism at the 
Department of Commerce? We would be able to have you come and 
give those stats for us. If you could have a seat here next to 
Laura over there against the wall, that would be fine. Thank 
you.
    We look forward to the testimony of the witnesses. We have 
a five minute clock. That clock is not going to apply to the 
first two witnesses. The first witness is Jim Ziglar. I do not 
know how it could apply to a videotape of Governor Bush. Mr. 
Ziglar, we welcome you here. We know you have been on extensive 
travel. We look forward to your testimony. Thank you, sir.

STATEMENT OF THE HONORABLE JAMES W. ZIGLAR, COMMISSIONER, U.S. 
             IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Ziglar. Thank you, Mr. Chairman. I appreciate your 
calling this hearing so that we can have a chance to discuss 
the INS' recently published proposed rules with respect to B-2 
visitors and B-1 visitors to the United States.
    I would like to briefly explain our reasons for issuing 
this proposed rule and clarify some misinterpretations and 
misperceptions. First, let me make it very clear that this is 
not a 30 day rule for visits to the United States. Our proposal 
is to admit all visitors for up to, but not more than, six 
months based on the purpose and stated duration of their visit. 
Experience and data indicate that six months far exceeds the 
average length of stay for most visitors.
    Since admission to the United States is not automatic, we 
also propose to place responsibility to explain the purpose and 
length of stay on B-2 visitors for pleasure. That is how we 
currently and have for a long time admitted B-1 visitors for 
business.
    In instances where there is ambiguity over the exact nature 
of the visit, INS proposes a default admission period of 30 
days. That is where someone cannot tell you why they are here 
or how long they plan to stay here. Then the default period 
will be 30 days, but it is not a maximum period that visitors 
get. The period is based upon what is reasonable and fair to 
accomplish the purpose of the visit.
    As the public, media and other interested persons have 
digested these proposed changes, a number of misperceptions 
have arisen regarding the rule, in particular that the INS is 
seeking to establish again a 30 day time limit on visits to the 
United States. That is simply not true. I keep repeating that 
because I think it is important for people out there to 
understand that.
    I know some have said that this rule will not enhance our 
security. I believe that claim is simply not true. The very 
reason for these changes is the concern highlighted by the 
activities of the 19 hijackers that an individual can enter the 
United States for an almost automatic six months and 
potentially can file for an extension and stay a year or more 
without having to validate substantially the reasons that they 
are here.
    As you know, 18 of the 19 hijackers entered the United 
States on B-2 visitor visas. In addition, an automatic six 
month admission period with a generous extension policy may 
lead individuals to develop permanent ties to the United 
States, including employment, although illegal, that 
contributes to the process of visa overstays.
    As the Committee is well aware, rules and regulations have 
a deterrent effect. Typical criminal behavior strives to avoid 
attention. Individuals who seek to do harm to our country are 
more likely to draw attention to themselves if they fail to 
play by the rules. Therefore, the proposed rule makes it more 
difficult for such individuals to remain undetected inside the 
United States for long periods of time.
    Nearly all of the 19 hijackers maintained valid status 
while planning the attacks of September 11. They made concerted 
efforts to do so, it is logical to assume, because that made 
them less likely to come to the attention of federal 
authorities.
    By limiting the stay of individuals who do not have 
legitimate reason to be in the United States for long periods 
of time, there is a greater likelihood that those with bad 
intent will appear on the radar screen of law enforcement 
officials. This proposed rule will also complement our 
developing an entry/exit system to record the arrival and 
departure of foreign nations, something that has been mandated 
by the Congress.
    I believe that it is the misunderstanding that we are 
reducing B-2 visitors for pleasure admission periods to only 30 
days that has led to the conclusion that the travel and 
tourismindustry would be harmed. The INS inspections program is 
carrying out a rigorous and will carry out a rigorous education program 
to ensure that all immigration inspectors fully understand that any 
default period is not a new maximum admission period. Our inspectors 
today determine a fair and reasonable period of admission for those 
entering as B-1 visitors for business. This concept is not new for our 
men and women at the ports of entry.
    As I am sure the Committee can well appreciate, national 
security concerns figure prominently in almost every action 
currently undertaken by the government. At the INS, we take 
seriously the responsibility to ensure a secure flow of people 
across our borders. This requires us to balance our charge to 
defend the United States from those who intend to do harm to us 
and the need to secure our economic prosperity and freedoms by 
keeping our borders open to legitimate travel and commerce.
    Mr. Chairman, let me just divert from my text here for a 
minute and make a personal comment about that. I spent most of 
my career, in fact the major portion of my career, working on 
Wall Street in New York, an industry that is very sensitive to 
the economy of this country. Just look at what the stock market 
does day in and day out.
    I can tell you that I am personally very concerned about 
any security measure that would have an impact on our economy 
for the simple reason that if we do not have a strong economy, 
we are not going to have the resources to protect ourselves, so 
it is an iterative process.
    I think you will see that in terms of the way we are trying 
to deal with some border issues in terms of trying to have a 
fast pass, if you will, concept between the Canadians and the 
U.S. and the Mexicans and the U.S. where we identify people and 
we have tamper-proof ways of having cards that they can pass 
across the border that indicate who they are and say they have 
the right kind of documents and that sort of thing. I mean, we 
are working very hard to try to ameliorate the effects, the 
adverse economic effects, of security measures.
    I am no less concerned about this issue than I am about the 
so-called fast pass, if you will, between those two countries, 
so you are not talking to someone here who is unaware of the 
economic consequences. I spent my entire life in the private 
sector dealing with economics and the impact on markets and 
other things.
    Our proposals make sure that every visitor applying for 
admission is questioned thoroughly in order to determine a fair 
and reasonable period of admission. It is reasonable to expect 
that anyone traveling to the United States should be able to 
articulate to the inspector the desired period of admission, be 
it verbally or with documents that outline the nature of the 
trip. Requiring individuals to justify their itinerary and 
length of stay is prudent policy, particularly in light of the 
post September 11 world.
    This proposed rule is just one of a series of steps that we 
are taking to bolster the integrity of our nation's immigration 
system. We have issued a number of necessary, if not 
universally popular, directives. For example, we directed the 
INS to publish changes to our foreign student regulations, and 
this summer we will begin to deploy the automated, internet 
based SEVIS system that monitors foreign students attending 
American institutions of learning.
    In a similar vein, I directed that no application or 
petition for immigration benefits be approved before 
appropriate security checks have been conducted. We have also 
instituted more robust checks on refugees, and overall we have 
instituted policies requiring higher levels of approval when we 
grant parole or deferred inspection at our ports of entry.
    We must take steps to minimize our vulnerability to those 
who would exploit our generous system, and it indeed is 
generous. Of equal importance are steps to guard against the 
erosion of public confidence in our long and rich tradition of 
welcoming people to this country.
    Our aim is not to stifle international tourism and the 
significant impact that tourism has on our economy. Our aim is 
to make the admission process to the United States safer and 
less vulnerable to abuse.
    The B regulation is a proposed rule. The Administration is 
open to persuasion and argument. I understand that people have 
raised their concerns in good faith. This hearing and the 
significant number of public comments will certainly play a 
role in how we draft the final rule on this issue. This give 
and take in public discourse is what this country is all about.
    Thank you again for the opportunity. I am sorry I went over 
my time, but I appreciate the opportunity to be here.
    [Mr. Ziglar's statement may be found in the appendix.]
    Chairman Manzullo. Thank you, Commissioner.
    Our next witness will be Pamella Dana, and I think you want 
to introduce your boss to us. Is that correct?
    Ms. Dana. Yes, sir.
    Chairman Manzullo. Okay. Bring the mike real close to you.

 STATEMENT OF PAMELLA DANA, DIRECTOR OF THE OFFICE OF TOURISM, 
    TRADE AND ECONOMIC DEVELOPMENT FOR THE STATE OF FLORIDA

    Ms. Dana. On behalf of the State of Florida, thank you, Mr. 
Chairman and Ranking Member Velazquez and Members of the 
Committee, for inviting me to join you this morning.
    As Florida is Director for the Office of Tourism, Trade and 
Economic Development, I am very honored to be before you today 
to introduce Governor Jeb Bush's videotaped testimony. On that 
note, I would like to offer special thanks to your staff who 
made the arrangements possible for this videotape.
    This hearing is very important to many states, but none 
more than Florida. With 70 million visitors to our state 
annually, of which eight million are from international 
destinations, tourism is Florida's largest industry. It is a 
$50 billion industry, employing 850,000 people. Small 
businesses comprise the bulk of those involved in the travel 
industry, and they depend upon the robust flow of domestic and 
international visitors to our state to keep afloat. As such, 
the proposed INS regulation to limit international visitor 
visas has far reaching economic implications for our state.
    This issue originally came to the Governor's attention from 
the Canadian Snowbird Association, a membership group of 
100,000 plus. The Governor has been heavily involved in this 
issue ever since. While he could not be here today, he wanted 
to do this videotape to stress and emphasize the importance of 
this issue to our state.
    With that, I will ask that we run the Governor's testimony, 
and I thank you for your time and consideration.
    Chairman Manzullo. I think we are going to work on some 
lights here.
    [Videotape played.]

 STATEMENT OF THE HONORABLE JOHN ELLIS ``JEB'' BUSH, GOVERNOR, 
                        STATE OF FLORIDA

    Governor Bush. Mr. Chairman, Members of the Committee, 
thank you for allowing me to speak to you today in response to 
the Immigration and Naturalization Service's proposed rule 
onlimiting international visitor visas.
    Let me preface my comments by emphasizing that the safety 
and security of our nation and its borders are of utmost 
importance. I support, as do the people of Florida, every 
reasonable effort on the part of the federal government to 
ensure that our citizens are protected from terrorist 
activities.
    At the same time, we must not impose unreasonable 
restrictions on the millions of international visitors who come 
to this country wishing only to enjoy our nation's natural 
beauty, exciting destinations and the hospitality of our 
people.
    My state, Florida, is among the world's most popular 
visitor destinations. Last year, we welcomed nearly 70 million 
people. Of that 70 million, about one in ten, or nearly eight 
million, came to us from a country other than the United 
States.
    Although the majority of these international visitors only 
spend a week or two in Florida when they visit, there is a 
substantial number who stay longer, sometimes for several 
months. Many of them own vacation property in Florida or stay 
with family or friends who live in Florida. These are the 
visitors who would be directly impacted by any move to impose a 
universal 30 day limit on the length of time non-citizens can 
stay in this country.
    Of the eight million international visitors to Florida, 
nearly three million are presently required to secure visas to 
enter the United States and would have their length of stay 
restricted under the proposal. Their contribution to our 
economy is commensurate with their significant numbers; more 
than $3 billion in spending and nearly $200 million in state 
sales tax revenue.
    Further, the relative misunderstanding of what the proposed 
rule change would actually mean to international visitors 
seeking to travel to the United States is widespread. We have 
experienced considerable correspondence from individuals and 
organizations around the world who either believe that the 
proposed rule changes would prohibit any international visits 
to the United States beyond the 30 days or that the proposed 
rule is in fact already in effect. Such misperceptions have led 
many to ponder other vacation destinations beyond the United 
States or a sell off of their vacation investments and 
properties in Florida.
    Confusion in the marketplace caused by simple 
misunderstandings could also make it difficult for tour brokers 
and operators to sell U.S. destinations for fear that clients 
would not be able to complete their itineraries in the United 
States.
    With all of these considerations in mind, I would urge the 
Committee to carefully weigh the impact that this proposal 
would ultimately have on valued international tourism to the 
United States.
    Thank you for your kind attention.
    [Governor Bush's statement may be found in the appendix.]
    Chairman Manzullo. I want the record to indicate that 
Governor Bush stated that he personally wanted to be here, but 
could not because of a commitment in California. Is that 
correct?
    Ms. Dana. Yes, sir.
    Chairman Manzullo. Does that conclude the Governor's 
testimony?
    Ms. Dana. Yes, it does.
    Chairman Manzullo. Okay. Thank you very much.
    The next witness will be Tom Sullivan. Tom, I am going to 
start the five minute clock on this, but you are used to it, 
and you usually conclude in a lot shorter time than that. I 
look forward to your testimony.

  STATEMENT OF THE HONORABLE THOMAS SULLIVAN, CHIEF COUNSEL, 
     OFFICE OF ADVOCACY, U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Velazquez, Members of the Committee. Thank you for the 
opportunity to appear before you this morning to address the 
impact on small business of the INS proposal to reduce the 
default period for admissions under a B-2 tourist visa.
    My name is Tom Sullivan. I am the Chief Counsel for 
Advocacy at the SBA. As Chief Counsel, I am charged with 
monitoring federal agencies' compliance with the Regulatory 
Flexibility Act. Please note that my office is independent and 
that the views expressed in my statement do not necessarily 
reflect the views of the Administration or the SBA.
    The Regulatory Flexibility Act requires agencies to prepare 
small business impact statements when proposing new 
regulations. The analysis is prepared in order to ensure that 
agencies consider their economic impact on small business and 
that agencies consider reasonable alternatives that would 
minimize the impact of rules on small entities.
    The Act exempts agencies from these requirements if they 
certify that the rule will not, if promulgated, have a 
significant economic impact on a substantial number of small 
businesses. If the head of the agency makes such a 
certification, the agency should provide a factual basis for 
the certification.
    I would like to point out that last year the Office of 
Advocacy worked with regulatory agencies and convinced them 
many times to change their approach prior to finalizing rules 
to the tune of $4.1 billion in cost savings. We are proud of 
the fact that these savings were achieved by sitting agencies 
down with small business and working through difficult issues.
    The savings were achieved without sacrificing environmental 
protection or sacrificing worker safety. The billions of 
dollars saved goes back into our economy, allowing small 
businesses to hire new employees, invest in new computers or 
provide health care for their employees.
    On April 12, INS proposed a rule limiting the period for 
admission for B non-immigrant aliens. Under the current rules, 
a foreign tourist is allowed to stay a minimum of six months 
under a B-2 tourist visa.
    It is my office's understanding that the new INS proposal 
will eliminate the minimum six months admission period and 
establish greater control over a B visitor's ability to extend 
status or change status to that of a non-immigrant student. For 
the purpose of this hearing, my comments are limited to the 
aspects of the proposal which eliminate the minimum admission 
period for B-2 visitors.
    In the Regulatory Flexibility Act section of the INS 
proposal, they certify that it would not have a significant 
economic impact on a substantial number of small entities. In 
my view, INS' certification is deficient because it does not 
consider the impact that the proposal may have on members of 
the travel and tourism industry who you will hear from directly 
in a few minutes.
    Representing small business, we are concerned about the 
potential impact of the INS rules. Department of Commerce 
statistics indicate that in the year 2000 foreign visitors 
spent $70 billion in this country. SBA's statistics indicate 
that the majority of the travel and tourism industry are small 
business.
    For example, 95 percent of all travel agencies and 84.5 
percent of the tour operating businesses are currently defined 
as small business. However, the proposal will affect more than 
travel agencies and tour operators. It will have a foreseeable 
impact on other small businesses likehotels/motels, 
restaurants, sightseeing bus companies and souvenir shops.
    If foreign travelers decide to travel elsewhere due to the 
uncertainty that we believe is inherent in this new visa 
policy, the travel and tourism industry could lose billions of 
dollars. Advocacy asserts that this impact is not only logical, 
it is foreseeable. Yet INS, in their proposal, made little 
effort to analyze that potential impact.
    Here in this proposal, flushing out the small business 
impact and considering alternatives that may have assisted INS 
in finding a more effective solution is the way we would have 
recommended they proceed. The Office of Advocacy is obviously 
sensitive to how the government approaches international 
visitors in the wake of the September 11 terrorist attacks. We 
want to make sure that the regulatory approaches protect both 
our national security and our economic security.
    Unfortunately, the INS proposal, in our view, appears to 
accomplish one, but not necessarily the other. The impact that 
the proposal could have on the travel and tourism industry is a 
serious concern, especially since the industry, made up almost 
entirely of small business, is struggling to recover from 
September 11. As the independent voice for small business 
within the federal government, I urge INS to consider less 
burdensome alternatives.
    Thank you for the opportunity to appear today. I am happy 
to answer any questions that you may have about my statement.
    [Mr. Sullivan's statement may be found in the appendix.]
    Chairman Manzullo. Thank you.
    Our next witness is Mark McDermott, the chairman of the 
Western States Tourism Policy Council and director of the 
Arizona Office of Tourism. Mark, if you want to pull that mike 
closer? We look forward to your testimony.
    The complete statements of all the witnesses and all the 
Members of Congress will be incorporated into the record 
without objection.

   STATEMENT OF MARK McDERMOTT, DIRECTOR, ARIZONA OFFICE OF 
TOURISM, ON BEHALF OF THE WESTERN STATES TOURISM POLICY COUNCIL

    Mr. McDermott. Thank you, Mr. Chairman. Good morning, 
Members of the Committee. I appreciate that you are going to be 
hearing a lot of the same sort of testimony from most of us 
this morning. In fact, most of what I have to say has already 
been said indeed by the Chairman and by the Ranking Member, as 
well as by previous speakers, so I will be very brief with my 
remarks and get right to essentially our conclusions.
    My name is Mark McDermott. I am the director of the Arizona 
Office of Tourism and currently serve as chairman of the 
Western States Tourism Policy Council. Just for your 
information, the council was formed in 1996 and is a consortium 
of currently 13 states, including Alaska, Arizona, California, 
Colorado, Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon, 
Utah, Washington and Wyoming.
    Our mission is to advance the understanding and increase 
the support for public policies that enhance the positive 
impact of travel and tourism on the economy and the environment 
of its member states and communities and their related 
businesses, principally small businesses.
    In all 13 of these western states, tourism is a dynamic and 
vital part of the economy, and it ranks among the top three 
providers of jobs in each western state and generates billions 
of dollars in payroll and taxes in the west.
    International visitation, especially from Canada and 
Mexico, is a major economic contributor to each of these 
states, and, Mr. Chairman, most of this economic activity, as 
you know, because you have already stated, primarily benefits 
small businesses for tourism in the nation and in the west and 
is predominantly small business with many of these small 
businesses ranking truly as mom and pop operations such as 
restaurants, motels, RV parks, campgrounds and vendors.
    The importance of international travel cannot be 
understated as it pertains to us and tourism in the west, as 
well as into the entire country. The visitation and economic 
impact figures for international tourism, including visa waiver 
and non-visa waiver countries, has already been stated, so I 
will not reiterate those.
    I will state, though, that for the particular purposes of 
those of us in the west, Arizona provides a good example, aside 
from the major tourism states of California and Nevada, in that 
in 2001, in our state nearly 315,000 Canadian visitors spent 
about $208 million and from Mexico, using 2000 figures, 1.5 
million Mexican visitors spent more than $740 million in 
Arizona.
    I have mentioned Canada and Mexico in particular because we 
believe that the confusion and misunderstanding about the 
proposed ruling is having a particular effect on these 
significantly important sectors of Arizona's and the west's 
international tourism market.
    Just as a quick aside, in our state of Arizona, according 
to the Arizona Travel Parks Association, during the seven month 
winter season of October through April Canadians occupy up to 
25 percent of the sites in many parks, and in some parks the 
figure approaches 50 percent of Canadian occupancy, so it is 
obvious that the impact on Canadian and potentially Mexican 
visitors of the confusion that prevails right now is already 
beginning to take place.
    While the WSTPC respects and appreciates the good 
intentions and the national security focused good intentions of 
those who have drafted this proposed rule and that the aim is 
not to stifle international tourism, we are concerned that it 
is in fact doing just that. It will do more harm than good.
    The proposed rule as stated in general terms and the 
implementation and enforcement procedures and requirements are 
undefined and unclear, causing uncertainty and endangerment of 
confidence on the part of potential international travelers 
and, perhaps even more importantly, on the part of tour 
operators planning tourism programs for these international 
travelers.
    We believe the proposal is seriously flawed for the 
following principal reasons. Implementation of the proposed 
rule will result in congestion and delay at ports of entry, 
which will discourage international visitors to the U.S.
    The proposed rule will seriously jeopardize tourism 
business in the U.S. from Canadians. I will speak to that for a 
moment here. Since Canadians entering the U.S. are not required 
to have visas now and would not be so required under the 
proposed rule, it is unclear how they would be handled. We do 
not know what documents will be required from them to prove the 
purpose or the duration of their visit, and we are concerned 
that a strenuous and precise enforcement of this rule will have 
a debilitating effect on Canadian travel, which will have a 
severely negative impact throughout the west.
    The proposed rule could potentially seriously jeopardize 
cross border travel by Mexicans into the U.S. for many of the 
same reasons having to do with uncertainty, and the conditions 
for granting extensions of stay fail to include residential 
leasing or renting as reasonable justifications. They pertain, 
as we understand them to be written right now, only to home 
ownership, as opposed to rental or leasing of vacation homes.
    To avoid negative impact on the proposed rule, WSTPC 
supports the reasonable alternative that has been proposed by 
the Travel Industry Association of America. TIA urges that a 90 
day default be granted to all B visitors and that it be 
extended upon request and review.
    In conclusion, Mr. Chairman, we believe that this proposed 
rule will unjustifiably jeopardize the economies of states and 
communities in the west and throughout the nation, and we 
respectfully suggest that it is a classic example of the costs 
of regulation far exceeding the benefits. In fact, we suggest 
it should be withdrawn.
    If not withdrawn, we respectfully urge that the rule as 
proposed be substantially modified in at least three respects. 
One, instead of a variable, unpredictable length of stay for B 
visa visitors, the final rule should adopt a fixed period of 90 
days as described earlier, allowing extensions up to 12 months. 
Canada and Mexico should be explicitly exempted from the final 
rule, and it should be clearly stated that the rule makes no 
changes in how Canadians and Mexicans are treated and processed 
as they enter the U.S.
    Three, lease and real properties should be regarded as 
equivalent to ownership when considering extensions of the 
length of stay.
    Thank you again, Mr. Chairman. WSTPC will be happy to 
provide any additional information that may be relevant and 
important to the Committee. This concludes my remarks.
    [Mr. McDermott's statement may be found in the appendix.]
    Chairman Manzullo. You will have set the record for saying 
the most in the least amount of time.
    Mr. McDermott. Evelyn Wood served me well.
    Chairman Manzullo. Is that what it is? That is great.
    I do not know when the bells are going to come up, and I 
want to keep the continuity going here. I am going to go down 
to the end of the table to John Lewis.
    Mark, can you hand the mike over to Mr. Lewis?
    In your testimony, Mr. Lewis, could you briefly give your 
background? We look forward to your testimony.

 STATEMENT OF JOHN LEWIS, RETIRED, FORMER ASSISTANT DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION, NATIONAL SECURITY DIVISION

    Mr. Lewis. Yes, sir. Thank you, Mr. Chairman.
    Chairman Manzullo. You have to pull it a lot closer than 
that.
    Mr. Lewis. Thank you, Mr. Chairman and Members of the 
Committee.
    I know the first thing when you look at the witness list 
you might ask what in the world is this guy doing here, but, 
quite frankly, I was asked by the Chairman to come and add some 
different perspectives, a counterintelligence and counter-
terrorism perspective.
    Given my own background, I retired from the FBI, as 
indicated on the witness list, in September, 1998, as Assistant 
Director in Charge of Counterintelligence and Counter-Terrorism 
Programs. In that capacity, I also served as chairman of the 
International Association of Chiefs of Police Committee on 
Terrorism and chairman of the National Counterintelligence 
Policy Board. When I retired, I took a job in New York as 
global security director for a major financial institution, 
retiring two months ago.
    Now, given the fact that clearly there are a lot of 
misunderstandings about this particular proposal, as 
Commissioner Ziglar pointed out and others, I am not an INS 
expert, but I am simply going to ask, as the Chairman has asked 
me to do, some different perspectives to maybe think about.
    First of all, aside from the fact that in my judgement, and 
this is based on my experience with the Bureau, and I also 
should mention I served a tour abroad, INS is clearly 
understaffed and, in my judgement, in a very poor position to 
make any kind of meaningful judgement regarding people seeking 
entry into the U.S.
    Secondly, it is difficult to talk about entry into the U.S. 
without considering the visa approvals process conducted by 
Consular Affairs officers around the world. With all due 
respect, I am aware of many one to two minute interviews as to 
whether or not a person is granted a visa. The usual focus is 
sufficient ties, that he or she will return and also have 
financial means to travel and return from the U.S.
    Given the fact that virtually every type of immigration has 
been exploited by terrorists, to focus on a minimum admission 
policy alone, quite frankly, makes little sense to me, 
especially putting the burden on the alien in effect to 
establish his or her bona fides to enter and stay in the U.S.
    Since this proposal is post September 11, I fail to see how 
this would make us more secure. To me, it does not focus on 
keeping out the most dangerous terrorists and criminals, but 
would have a chilling effect to more law abiding, poor or 
middle class potential visitors rather than the terrorist 
criminal individuals and groups or groups who, quite frankly, 
have no qualms to get past our controls. Ultimately, the whole 
issue of immigration to include visa issues and entry into the 
U.S. rests on proper screening and tracking.
    These observations, and I will only make a few; that is why 
I am only going to talk for a couple of minutes here, and they 
are not all inclusive, nor are they in any particular priority, 
but these are some of the things I would ask that maybe you 
congressmen and women and look into.
    Consular Affairs must be upgraded and better integrated 
with INS to ensure visa applicants are properly checked. 
According to the Center for Immigration Studies, page 7, 41 of 
48 terrorists were approved for a visa by an American consulate 
overseas.
    The screening process should include access to all 
suspected criminals and terrorists across the federally held 
databases. I know a lot of strides have been made in that 
regard, but Consulate Affairs has to get involved, too, and not 
just with a cable back to the States.
    Next, better our ability through liaison and technical 
means to detect fraudulent passports with our visa waiver 
program countries. I will not go into all the issues regarding 
certain countries where most of these terrorists came from and, 
quite frankly, how many of them got a visa without even 
appearing before an American.
    Next, fund and institute a computerized entry/exit system. 
The fact of the matter is our current system is neither timely 
nor totally adequate to track visitors to the United States. I 
know we have the I-94 program, but, to the best of my 
knowledge, this is all still done by hand and not computerized.
    Next, to fully support the fingerprinting of visa 
applicants from high profile countries supporting terrorism. A 
photograph is obtained already through the visa application 
process.
    Lastly, and I know again there have been some strides made 
in this regard, but, in my own mind, having dealt with a lot of 
police over the years, it is inadequate. I am sorry. I missed 
out of turn here. It should be ensured that all other federal 
agencies, as well as state and local law enforcement 
authorities--by that I mean the cop on the street--has access 
related to any information placed in federally held law 
enforcement databases related to visitors to the U.S.
    To make a phone call to check on somebody and have to wait 
for a response I do not think is adequate. I recognize that 
this might be very controversial, but the fact of the matter is 
the guy who makes the stop, the speeding stop or whatever, it 
would really be nice if he or she had some access to this 
information if something is there.
    Lastly, and probably the main reason I offered to come 
here, is that in any organization that petitions or sponsors a 
person to come to the U.S. either as a student or on a work 
permit, thatorganization should be responsible to report 
whether he or she is still in the U.S.
    I understand the schools have now been tasked with this 
requirement. I do not know how that is operating, but how about 
businesses? I know that when you petition or sponsor someone to 
come in if they leave your employ it is supposed to be up to 
them to notify INS. Well, to my way of thinking that is 
whistling in the wind.
    That is the extent of my remarks, Mr. Chairman.
    [Mr. Lewis's statement may be found in the appendix.]
    Chairman Manzullo. We appreciate that. Thank you very much.
    Our next witness is Neil is it----
    Mr. Amrine. Amrine.
    Chairman Manzullo. Amrine. Okay. Neil is the president of 
Guide Service of Washington, Inc., on behalf of his company and 
also on behalf of the Travel Industry Association of America. 
We look forward to your testimony.

     STATEMENT OF NEIL AMRINE, PRESIDENT, GUIDE SERVICE OF 
  WASHINGTON, ON BEHALF OF THE TRAVEL INDUSTRY ASSOCIATION OF 
                            AMERICA

    Mr. Amrine. Thank you, Mr. Chairman.
    Chairman Manzullo. Could you pull your mike up a little bit 
closer there? Thank you.
    Mr. Amrine. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Velazquez and Members of the Committee, I appreciate the 
opportunity to testify before you regarding INS' new proposed 
rule on the minimum admission period for B-2 visa holders.
    I am Neil Amrine, president of Guide Service of Washington, 
and I am testifying today on behalf of the Travel Industry 
Association of America or TIA. Guide Service provides tours and 
other travel services for the D.C. area and its attractions for 
both domestic and international travelers. We have about 100 
tour guides working in 20 different languages.
    T.I.A. is the national non-profit organization representing 
all components of the $545 billion U.S. travel and tourism 
industry. TIA's mission is to represent the whole of the travel 
industry, to promote and to facilitate increased travel to and 
within the United States.
    Guide Service of Washington and the entire travel industry 
believes that INS' proposal to change the admission period for 
travelers from six months to a shorter and poorly defined 
reasonable period will deter international travel to the U.S. 
It is entirely possible inspectors could assign admission 
periods for less than the length of a visitor's tour package. 
This new proposed rule will not increase security, but it will 
drive travelers to other international destinations.
    Based on my years of experience, I can foresee many reasons 
why the INS as a result of the proposed rule would fail to 
assign the correct admission period to each international 
visitor. Some typical situations the rule does not take into 
consideration are optional add on tours. Most tour operators 
offer optional add ons for their tours; for example, a two day 
trip to Las Vegas in addition to a week long tour of Los 
Angeles.
    It is not unusual for visitors to want to see additional 
sights and destinations after they have arrived in the United 
States. The new proposed rule would prevent tourists from 
purchasing these additional services and will restrict the 
ability of American business to sell their product.
    Family. International visitors will often spend additional 
time with family that live in the U.S. after their tour has 
concluded. This means that the tourists will not leave the 
country when the rest of the tour group leaves. These tourists 
do not always know exactly what their family member has planned 
for them when they first arrive in the United States.
    Unforeseen events. Trips to the United States do not always 
go as planned. I have seen many instances where thunderstorms 
have shut down international flights out of Dulles or JFK, and 
the tour has to spend an additional night here. I am also aware 
of times when the tour bus breaks down, stranding travelers 
long enough that they miss their flight. Without the 
flexibility of a set admission period, INS could be swamped 
with requests for extensions. What will the INS do to travelers 
that only overstay a day or two in these situations?
    The primary problem with the INS' new proposed rule is the 
lack of certainty created by eliminating the minimum admission 
period. If the INS rule is implemented as written, it will be 
extraordinarily damaging to the U.S. tour market. Without the 
certainty of a minimum admission period, neither the tour 
company nor the traveler can afford the risk of a trip cut 
short in the United States.
    T.I.A. believes a reasonable alternative would be to reduce 
the minimum admission period for B-2 visa holders to three 
months or 90 days. This fixed time period would allow 
international tour operators and individual travelers to plan 
their trips to the United States with certainty while meeting 
INS' goal of significantly reducing the minimum admission 
period granted to B-2 visitors.
    I would like to thank the House Small Business Committee 
and the SBA for their leadership in assisting small businesses 
after September 11. My company received one of the new Small 
Business Administration economic disaster loans that became 
available for companies in the travel and tourism industry last 
fall, but I am baffled and frustrated that my government would 
turn around and propose a rule so harmful to my industry. As I 
see it, the federal government is providing me with a loan, but 
making it harder for me to pay it back.
    I urge the Members of this Committee to work with the INS, 
the Justice Department and the White House to stop this rule 
from being implemented as written. The travel industry proposal 
of a 90 day admission period is a reasonable alternative.
    Thank you for the opportunity to appear before you today, 
and I look forward to answering any questions that you might 
have.
    [Mr. Amrine's statement may be found in the appendix.]
    Chairman Manzullo. Thank you for your testimony.
    Our next witness is Del Highfield, owner of the Camping 
Resort of the Palm Beaches, West Palm Beach, Florida. Perhaps 
in January we should consider a field hearing.
    Mr. Highfield. I think that would be an excellent idea. You 
all come on down now, you hear?
    Chairman Manzullo. I think that Commissioner Ziglar might 
be interested in coming there also on the same topic. That is 
correct.
    Mr. Del Highfield is the owner of his own business 
testifying on behalf of that business and also on behalf of the 
National Association of RV Parks and Campgrounds. We look 
forward to your testimony.
    Mr. Highfield. We will leave the light on for you.
    Chairman Manzullo. All right.

 STATEMENT OF DEL HIGHFIELD, OWNER, CAMPING RESORT OF THE PALM 
BEACHES, ON BEHALF OF THE NATIONAL ASSOCIATION OF RV PARKS AND 
                          CAMPGROUNDS

    Mr. Highfield. Mr. Chairman, Members of the Committee, my 
name is Del Highfield, owner of Camping Resort of the Palm 
Beaches located in Palm Beach County, Florida. I am honored to 
be here this morning as a small businessman representing more 
than 8,000 commercial RV parks and campgrounds across the U.S.
    I am here to speak on behalf of my 3,800 colleagues who are 
members of the National Association of RV Parks and 
Campgrounds, known as ARVC. ARVC is the national trade 
association that represents the commercial RV park and 
campground industry in the U.S. The industry employs more than 
120,000 full-time and seasonal employees and serves some 40 
million avid RVers and campers. It is the strong position of 
ARVC that this proposed INS rule must not be adopted in its 
current form.
    Allow me to take a moment to tell you about my business and 
its relationship to the issue before you this morning. My park 
just happens to be the exact size of the national average of 
commercial parks within ARVC, just 133 campsites. We are a 
modest small business with gross annual sales of around 
$800,000.
    We are the quintessential mom and pop operation. We have a 
paid staff of only two full-time and six part-time employees, 
and each year we have an annual occupancy of 87 percent with 
over 42,000 site nights rented. Due to the high cost of 
business in south Florida, however, our profit margin is 
minimal, and high occupancy is the only way we stay in 
business.
    Canadian visitors represent 25 percent of my total revenues 
or over $200,000 a year. According to the Palm Beach County 
Tourist Development Council, these visitors at our park alone 
place another $250,000 into our local economy. Without their 
ability to stay long periods of time, our ability to continue 
to operate would be in serious question.
    We are the rule in the Florida tourism market, not the 
exception. Our camping, tourism and hospitality industries 
heavily depend on Canadians. Regulatory changes that would 
shorten the length of stay for Canadians or other international 
visitors or any new rule that discourages long winter stays in 
the U.S. for foreign visitors will have a severe impact on our 
RV industry, as well as our economy, taxes and employment.
    According to the Florida Association of RV Parks and 
Campgrounds, the number one source of out-of-state campers in 
Florida is Canada. Most Canadians travel to Florida in the 
winter months. They stay longer, and they stay longer than non-
campers. They average 45 days and spend approximately $1,400 
per trip.
    In all, Canadian campers and RVers contribute approximately 
$280 million to the Florida economy each year. This large group 
of vacationers is vitally important to the Florida camping 
industry and the state as a whole. Other Sun Belt states would 
suffer similar losses, we are sure.
    Loss of Canadian RV business in the southern tier will be 
felt by all states along routes from Canada to the south. This 
will be especially true in such tourism dependent areas as 
Branson, Nashville, Smokey Mountains, Myrtle Beach, 
Williamsburg, Las Vegas and other areas as Canadians travel to 
Sun Belt states like Florida, Texas, Arizona, New Mexico, 
Nevada, Alabama, Mississippi and California.
    The proposed rule will create delays, confusion and 
frustration at all international ports of entry. Detailed 
questions will be necessary to determine the purpose of an 
international visitor's trip. Challenges are likely to the 
validity of documents. INS inspectors will either be given 
extraordinary latitude or will have to follow extremely 
detailed guidelines. Either course is unattractive. The outcome 
will be frustrated international visitors who will not want to 
repeat this experience in the future.
    Canadians are not required to have visas, but they are 
subject to the B visa provisions. Presumably, they will be 
questioned about the purpose of their visit in the same manner 
as overseas folks. Like all B visa visitors, they will have to 
obtain official documents verifying legal entry and approved 
length of stay, clearly a major and unsettling change for our 
Canadian friends.
    One anomaly in the proposed rule would be particularly 
damaging to RV parks. While home ownership is declared to be a 
valid basis for getting an extension of stay, leasing or 
renting a residence or an RV site is apparently not. Canadian 
RVers often spend long periods in the United States and may 
lease or rent an RV park site for up to six months. We strongly 
urge that leasing or renting property be treated equally with 
ownership as a valid reason for extending a visit.
    We also support the proposal of the TIA that a 90 day 
admission be granted to all B visa holders, which could be 
extended to six months. This seems to be fair, reasonable and 
avoids many of the problems in the proposed rule.
    In summary, Mr. Chairman, ARVC believes that the proposed 
rule must be substantially modified to ensure minimum negative 
impact on tourism and that extensions of stay should be granted 
for leased or rented property in the same manner as owned 
property.
    We believe prompt action is critical so this issue is 
resolved no later than late summer so the Canadians and 
southern tourism businesses can adequately prepare for a 
prosperous and successful winter 2002-2003.
    Thank you once again, Mr. Chairman, for the opportunity to 
appear here today. I would be happy to respond to any 
questions.
    [Mr. Highfield's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much.
    Our next witness is Ellen White, who is president of the 
Canadian Snowbird Association. I did not know there was such an 
association. I see you are wearing your Canadian whites in 
anticipation of the heavy snows coming this winter and then you 
all coming down south to spend lots of tourism dollars.
    I notice that part of your resume is that you are an 
amateur artist and writer, and I imagine you will be have 
something else to write about after your experience here 
testifying before the U.S. Congress. We look forward to your 
testimony.

    STATEMENT OF ELLEN WHITE, PRESIDENT, CANADIAN SNOWBIRD 
                          ASSOCIATION

    Ms. White. Thank you very much, Chairman Manzullo and 
honored Committee Members. I am Ellen White. I am president of 
the Canadian Snowbird Association, and I am an active snowbird. 
Actually, I am a winter Texan. We are not called snowbirds in 
Texas.
    I am honored to appear before the House Small Business 
Committee on behalf of the almost 100,000 members of the 
Canadian Snowbird Association and all of the 447,800 Canadians 
who enjoyed the United States' hospitality for 31 days or more 
each year.
    We fully understand and support the need to control the 
alien population within the United States. The events of 
September 11 changed the world forever, and greater security is 
now a way of life.
    The Canadian Snowbird Association is extremely concerned 
with the INS' proposed changes to the B-2 visitors visa 
regulations. The uncertainty of snowbirds' access to their 
winter homes and destinations in the United States and 
particularly the length of that access has already caused 
upset, confusion and, in our opinion, will result in a 
substantial reduction in tourism to the United States.
    We respect the fact that Canadian retirees are subject to 
inspection, as are any other visitors to your country, but we 
have proposed to the INS an amendment to the regulation. 
Snowbirds vacation for up to six months of the year, primarily 
in Florida, Texas, Arizona and California. Governor Jeb Bush 
estimates the dollars left in Florida alone by foreign 
travelers at $5.5 billion, generating $500 million in state 
sales tax revenue.
    While a great many of our members own property in the 
United States and live in their second homes for six months of 
the year, as we have already heard, a large number are retired 
and do not own property. Rather, they rent or they travel by 
recreational vehicles.
    Regardless of the accommodation, Canadian snowbirds pay all 
fees and utilities that are required and applicable United 
States taxes that are requested. We support local restaurants, 
grocery stores and the entertainment industry. As the majority 
of snowbirds drive, we purchase gasoline in the United States. 
We use American garages for maintenance. Should the regulation 
pass unchanged, the loss of snowbird activity will reverberate 
through the United States as the enroute states and tourist 
attractions will also be affected by the loss of these 
visitors.
    Mr. Chairman, last year Canadians spent more than $7 
billion while here on vacation. Fifteen million Canadians 
crossed our border, ten million of those trips for pleasure. 
Additionally, while taking into account the influx of short-
term visits to snowbirds by friends and family each year, the 
dollar amount rises considerably.
    Although technically a Canadian does not need a visa to 
enter the United States, the border inspector must have some 
standard to apply. The standard that has been applied to date 
is the same as that applied to a B visitor visa. A person must 
have a residence in Canada which he has no intention of 
abandoning and visits the United States temporarily for 
pleasure and has the finances to provide for the duration of 
the stay.
    Our concern is that the criteria as enumerated in the 
proposed regulation, 214.2(b)(1), as applied to Canadians will 
have a devastating effect. It seems logical in determining 
whether a longer stay than 30 days would be fair and reasonable 
reference would be made to the proposed subsection which 
enumerates the only circumstances which an extension would be 
granted.
    It does not seem reasonable that one could be granted a 
longer period in the initial inspection for a reason which 
would not permit an extension. There is no criteria for one who 
simply wants to stay longer than 30 days to enjoy the warmth 
and hospitality of the southern state.
    Your southern weather makes us feel better, and it often 
keeps us healthier. At the impulse of an inspecting officer, a 
snowbird, one who contributes to the United States economy, may 
have their winter plans completely destroyed.
    Just yesterday, we received a call from a member who was 
most upset. The gentleman's neighbor attempted to cross the 
Ambassador Bridge on Monday, June 17, at approximately 6:00 
a.m. He was denied entry and told it was because he did not 
have the deed to his Florida residence with him. When handed a 
form, no written reason was given.
    Our member called to ask if there was any official document 
list issued by the INS for snowbirds to follow to ensure that 
they could travel. As far as we know, there is none. I do know, 
however, that we have another frightened snowbird, and the 
regulation has not even gone into effect.
    On Monday, Director of Homeland Security Tom Ridge assured 
our Deputy Prime Minister John Manley that Canadians would not 
be affected by those proposed regulations. Chairman Manzullo, 
we were thrilled by the announcement. Now all we ask is that 
his promise be followed through and written into the 
regulation.
    To that end, we will submit into the record a copy of our 
letter sent to Mr. Ziglar of the INS with our proposed wording 
to clarify the status of Canadians.
    [Ms. White's statement may be found in the appendix.]
    Chairman Manzullo. That letter will be admitted as part of 
the record and as part of your testimony. Thank you very much.
    Ms. White. Thank you.
    Chairman Manzullo. Our next witness and last witness is 
Mark Hjelle, vice-president and general counsel, The Brickman 
Group, from Langhorne, Pennsylvania, speaking on behalf of the 
American Nursery & Landscape Association. It is not really 
related to this hearing, but----
    Mr. Hjelle. I will try to tie it in.
    Chairman Manzullo [continuing]. You are invited to comment, 
and we look forward to your testimony.

 STATEMENT OF MARK HJELLE, VICE-PRESIDENT AND GENERAL COUNSEL, 
    THE BRICKMAN GROUP, ON BEHALF OF THE AMERICAN NURSERY & 
                     LANDSCAPE ASSOCIATION

    Mr. Hjelle. Thank you very much, Mr. Chairman. Chairman 
Manzullo, Representative Velazquez and Members of the 
Committee, thank you for the opportunity to share my concerns 
on the impact of the recent INS proposal to limit the period of 
admission for B-2 non-immigrant alien tourist visas.
    My name is Mark Hjelle, and I am vice-president and general 
counsel of The Brickman Group headquartered in Langhorne, 
Pennsylvania. Brickman is a privately held and family owned 
company that has been in business since 1939. Brickman employs 
approximately 2,000 full-time employees and another 5,000 
seasonal workers. Brickman generates over $300 million in 
annual revenues from businesses in 28 states.
    My comments also reflect the concerns of the American 
Nursery & Landscape Association and the Associated Landscape 
Contractors of America, our industry's two national trade 
associations. At first glance, it may seem as if the nursery 
and landscape industry does not have an interest in the INS 
proposal to limit the duration of B-2 tourist visas. This 
proposal would not affect the H-2B non-immigrant work visas 
that Brickman and other green industry companies utilize in 
order to make up shortfalls in their seasonal work forces or 
any other business visa category, as far as I can tell.
    In addition, it is not entirely clear to me that the 
proposed INS requirement would have a chilling effect on 
tourism. Persons who plan to come to America as a tourist for 
more than 30 days certainly should have a plan for how they are 
going to spend that time. I do not have a particular problem 
with requiring someone who is going to be here that long as a 
tourist to present a plan of their activities while in this 
country.
    On the other hand, I do not believe that reducing the 
default period is going to result in better INS control of 
aliens. The Committee is quite right that an individual can 
overstay a 30 day visa as easily as any other visa. The real 
question is what the INS proposes to do in 30, 60 or 90 days 
that they currently are not doing for those overstaying six 
month visas.
    However, considering the magnitude of this country's 
economic dependence on foreign travelers for business, as well 
as tourism, it is valuable that we are having this discussion. 
The nursery and landscape industry is extremely sensitive to 
issues involving immigration policy as our businesses are 
highly dependent on alien labor.
    The reliance of the green industry on foreign labor is 
primarily borne out of the historic reluctance of U.S. domestic 
workers to pursue the employment opportunities offered in this 
rapidly growing industry with estimated annual revenues of $14 
billion. Many jobs in the green industry are low skilled, 
physically demanding, seasonal and must be performed in a 
variety of inclement weather conditions.
    Therefore, while our industry is exceedingly security 
conscious, we strongly urge this Committee and Congress as a 
whole to be very careful not to unduly restrict alien movements 
or create well intended administrative remedies that quickly 
turn into roadblocks that negatively impact the flow of legal 
and essential workers into this country.
    As an example of this well intentioned but poorly executed 
administrative remedy I am talking about is an INS recent 
policy requiring security checks on all named beneficiaries for 
H-2B non-immigrant work visas. It is completely understandable 
why the INS would want to check the backgrounds of these 
individuals. However, the reality of the situation is that the 
processing of these applications is already severely 
backlogged.
    With no additional resources being provided to the INS for 
implementation of this new security check, current backlogs, as 
much as 75 days in some offices, will undoubtedly grow longer, 
forcing many employers to either miss their dates of need or 
pay a per petition fee of $1,000 for so-called premium 
processing.
    The surge of anti-immigrant fervor after the 9-11 
tragedies, coupled with difficult and time consuming border 
crossings, has greatly impacted many foreign workers legally 
employed in the green industry. Many were afraid to return to 
their native countries and are now working with fraudulent work 
authorization documents. Others were too scared to return to 
America regardless of the fact they had good paying jobs with 
long-term security waiting for them here.
    As a result, many employers in our industry lost valuable 
and trusted workers. Consequently, we are greatly concerned 
with the ramifications limiting tourist visits will ultimately 
have on other visa programs for those aliens seeking to gain 
lawful entry into the U.S. for non-tourist purposes like 
employment.
    When all is said and done, I do not believe reducing the 
default period on B-2 tourist visas is a major problem. I do 
see that there could be potential benefits, but I strongly 
encourage Congress to continue to fight on behalf of small 
businesses everywhere to ensure a continued safe and smooth 
flow of lawful aliens into and out of America.
    This is essential for the purposes of travel and tourism, 
as well as employment opportunities offered by guest worker 
programs by industries unable to attract sufficient U.S. 
domestic workers.
    Again, thank you for the opportunity to participate in this 
discussion.
    [Mr. Hjelle's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much. I understand the 
relevance because you are perceiving a pattern that could 
directly impact your industry, and I appreciate your tying that 
in.
    I have several questions here. Mr. Ziglar, it must be ten 
to one against you on the witness table, including the 
President's brother. This is not an easy situation for you to 
be in, but I guess you asked for it by becoming the Director of 
the INS. We appreciate the hard work that you are putting in 
and certainly appreciate your heart and wanting to do what is 
best for the nation.
    I do have some questions. I have the proposed rule in front 
of me. Do you have that in front of you, Commissioner? I want 
to make particular reference to it. It is on page 18,068. Not 
that many are directed to this. It is about six pages on this 
particular regulation.
    Mr. Ziglar. I have it right here.
    Chairman Manzullo. Page 18,068. That is correct.
    Mr. Ziglar. I have it. I just have to find it.
    Chairman Manzullo. It is the area that talks about the 
Small Business Regulatory Enforcement Fairness Act. It is in 
the upper left-hand corner. Do you see that, Commissioner?
    This was what Mr. Sullivan had testified to. He said the 
rule is not a major rule as defined by Section 804 of the Small 
Business Regulatory Enforcement Act. The statement here says, 
``This rule will not result in an annual effect on the economy 
of $100 million or more, a major increase in cost or prices or 
significant adverse effects on competition, employment, 
investment, productivity, innovation or on the ability of the 
U.S. based companies to compete . . .''
    Could you tell me what documentation and what study and 
what econometric designs were used to come to that conclusion?
    Mr. Ziglar. Being outnumbered ten to one, I grew up in 
Mississippi. I know how it is to be outnumbered ten to one.
    Let me make a comment. I did not ask for this job. I was 
recruited for it.
    Mr. Chairman, the analysis, as I understand it, that was 
undertaken here was based upon the statistics that we had in 
front of us with respect to the average median length of stay 
of individuals who are coming into the country.
    Keeping in mind, of course, that anyone coming in under the 
visa waiver program, which has about 28 countries, major 
countries, which the major portion of our tourism comes in 
from, they are not affected by this because the visa waiver 
program has its own set of rules unimpacted on this.
    The Canadians, for example, there is again this 
misperception issue with respect to Canadians, and that is 
that, as you know, Canadians come in without any requirement of 
an I-94 being processed. In fact, up until September 11, we did 
not even basically require Canadians to document that they were 
Canadian citizens. Maybe some ID. No passport. Now we at least 
ask for some kind of ID to establish some prima facie case that 
they are Canadians, but they are not asked for I-94s.
    The I-94 is the vehicle by which the fair and reasonable 
time will be documented on that. There is nothing in these 
regulations that will require the I-94 to be processed, and so 
the Canadians will automatically by virtue of the way it is 
structured fall under a six month period, which is the maximum 
period of stay under the regulations as it was the default 
period before. That is, a fair reading of the regulations would 
suggest to you that is the way now.
    Going back to your question, based upon the statistics that 
we had in front of us and us even assuming that you had some 
kind of 30 day maximum limit, which it is not, and I keep 
saying that. It is not. It would have not a material impact on 
the economy unless everyone who stayed over 30 days just 
refused to give us any information about the purpose of the 
intended length of their stay.
    If you look at it from a common sense point of view, and on 
the statistics it would suggest to you that the way the 
regulations are structured would not have that impact.
    I must repeat again that all that we are asking for is that 
somebody who comes here on----
    Chairman Manzullo. I understand, but, I mean, when you made 
this statement, prior to making the statement had you talked to 
any of these industry groups here?
    Mr. Ziglar. I did not personally, but our----
    Chairman Manzullo. Was anybody here talked to by INS to 
quantify this statement?
    Mr. Ziglar. Well, I did not personally, but I know that our 
people were talking to individuals in the industries.
    Chairman Manzullo. These people here represent the 
industries. Is there anybody here from INS that talked to 
anybody in the industry? Do you want to raise your hand?
    I would submit, Commissioner, that what has happened here 
is somebody took a guess at this. When you look at the State of 
Florida alone, which is it three billion or five billion, Ms. 
Dana? Five billion?
    Ms. Dana. Yes.
    Chairman Manzullo. The total amount.
    Ms. Dana. Of international visitors?
    Chairman Manzullo. Yes.
    Ms. Dana. We have eight million that come in.
    Chairman Manzullo. Could you put the mike up to you, 
please?
    Ms. Dana. Annually, we have eight million international 
visitors, and that is of the 70 million that come in.
    Chairman Manzullo. And how much do they spend?
    Ms. Dana. We estimate $8 billion.
    Chairman Manzullo. $8 billion. Did anybody from INS confer 
with you or the State of Florida prior to the promulgation of 
this proposed regulation as to the economic impact?
    Ms. Dana. No, sir, not on this issue. We have worked well 
with the INS, but not on this issue have we been consulted.
    Chairman Manzullo. Commissioner Ziglar, I guess what I am 
looking at here and the reason I am asking this question is I 
think that this is conjecture that appears in these 
regulations.
    The Small Business Regulatory Enforcement Fairness Act is 
critical to the small business industry. That is one of the 
reasons this Committee exists. What we see here is, and I will 
be quite frank with you, a lack of scholarship that went into 
this statement.
    Mr. Sullivan talked about it. The people in the various 
industries talked about it. If you are going to even consider 
going ahead with this rule, I would suggest you withdraw it and 
then comply with SBREFA before you put out a new proposed 
regulation.
    That is a tremendous concern to us because I think somebody 
here just guessed at it. When you look at the misunderstanding 
coming from this proposed rule to the fact that somebody from 
INS has already not allowed a Canadian resident to come in 
without their deed, I do not know what you looked at, but it is 
obvious the industry was not consulted.
    Mr. Ziglar. Well, Mr. Chairman, let me say, number one, 
about the Canadian that came in. I just asked while this was 
going on to find out the name of that person and the name of 
the inspector because I find that a bit surprising given the 
fact that we do not generally make inquiries of Canadians other 
than some basic identification unless there is a reason the 
inspector has to question the admissibility of that person. Not 
all Canadians are admissible. There are reasons not to.
    We put Canadians like everybody else in the secondary from 
time to time and raise questions. Now, there may be some 
situation here where there is a question that needed to be 
raised, and I think in the absence of more facts it is a bit 
unfair to use this as an example.
    Mr. Chairman, also let me just say this. A fair reading of 
the regulation does not suggest that we have a 30 day maximum 
period for people coming in. We have a fair and reasonable time 
that they will be granted based upon the intent, purpose and 
length of the proposed trip.
    If you read the regulation, that is what it says. I do not 
know how you build an assumption on the economic impact of a 
regulation if people either intentionally or unintentionally 
misread it for whatever purpose.
    Chairman Manzullo. It is not the assumption. The issue is 
it is not so much the legal effect. I am sorry. It is not so 
much the legal language of a regulation. It is how people 
interpret it.
    You know, I practiced law for 22 years. I have with me 
Carol Weineke, who has been with me since 1971. She has done 
immigration law in the office for ten years, and she has been 
through probably 5,000 cases. She teaches immigration law to 
other congressional offices.
    This is extremely confusing. It is so confusing. The 
confusion is so paramount that the only way to stop the 
confusion is simply to withdraw the regulation and say that 
this does not make sense. We do not want to stop tourism 
because the best of intentions on the part of INS would not get 
around the confusion that could cause the harm to the tourism 
industry.
    I am not blaming the INS for causing the confusion. I know 
that you worked hard with the press in order to get out the 
word as to the exact nature of this.
    Ms. Velazquez?
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Commissioner, given the testimony that we heard here 
from all the witnesses, including the President's brother, what 
type of steps are you prepared to undertake? It is the opinion 
of everyone here that this indeed will have an economic impact 
on small businesses. What will be the type of action that you 
will take in order to address these concerns?
    Mr. Ziglar. Congresswoman, first let me point out that this 
is not a regulation by the INS in the vacuum. This is a 
regulation that was fashioned throughout the Administration 
with a number of people involved in it. We had a hand in it. 
Obviously we are the authority issuing that regulation.
    It is also a proposed regulation. It is not in effect. It 
is out there. We have gotten a lot of comments. We obviously 
will consider those comments. I have read some of them myself. 
We will as an Administration--not as the INS alone, but the 
Administration. We will consider those comments, as well as the 
comments that have been made here today and made by Members of 
Congress both publicly and privately.
    Ms. Velazquez. I understand. Mr. Commissioner, at the 
beginning of your testimony you said that there is 
misconception and misinterpretation, and there is so much 
confusion. If there has been an industry in our economy that 
has been impacted the most after the events of September 11, it 
is the tourism industry. Then you add your proposed regulation. 
That brings more confusion and, therefore, will have a more 
negative impact on these type of businesses.
    My question to you is based on what we heard. Are you 
prepared today to take the extraordinary step of convening a 
panel the same way we do with OSHA and EPA to work on this 
issue?
    Mr. Ziglar. Well, I am certainly----
    Ms. Velazquez. And, yes, SBREFA, and based on the assertion 
from the Chief Counsel of SBA, Mr. Tom Sullivan, that indeed 
this will have an economic impact on small business.
    Mr. Ziglar. Well, I am certainly willing to discuss this 
with various components of the industry. Convening a panel runs 
into the Federal Advisory Committee Act, so I am not sure that 
I would convene a panel, but I am certainly willing to advise 
and deal with the industry in the context that it does not 
violate the law.
    Ms. Velazquez. I would like to hear Mr. Tom Sullivan's 
opinion on this. Will that affect SBREFA?
    Mr. Sullivan. Commissioner Ziglar may not be as familiar 
with this panel process as our colleagues at EPA and OSHA are.
    Basically, pre-proposal EPA and OSHA sit down with folks 
like the small business owners that are represented around this 
table and try to, at one point, put out the agency's intention. 
In the case of INS that is to protect our nation's borders, 
and, at the same time, flush out how they can do that while 
minimizing the economic impact on small business.
    This is a formalized panel process with OMB, Dr. John 
Graham, who heads their regulatory office there, our office and 
the promulgating agency. While INS is not subject to the panel 
requirement, what the Congresswoman does bring up is would we 
be able, in the time frame that is allowed between proposed and 
final rules, to sit down with Office of Advocacy, 
representatives from the small business groups, travel and 
tourism, and INS to flush out whether there is in fact a less 
burdensome alternative that would preserve the security of 
small business, but also preserve the security of our nation's 
borders.
    Mr. Ziglar. I was not aware of this panel process. I am not 
skilled in bureaucratic matters. I apologize. I do know about 
the Federal Advisory Committee Act.
    Ms. Velazquez. Well, now that you are part of the federal 
government I guess that you have to become more accustomed to 
that.
    Mr. Ziglar. I sometimes am not surprised why the American 
people are so cynical about government with all the bureaucracy 
we have sometimes, but I am certainly happy to work with 
industry. That is where I spent my career.
    Ms. Velazquez. Mr. Sullivan, I just would like for you to 
clarify to the Commissioner that FACA does not apply.
    Mr. Sullivan. Actually, I know that FACA, the Federal 
Advisory Committee Act, does not apply to the panels convened 
by EPA and OSHA.
    I would be happy to consult with the Committee subsequent 
to this hearing on whether or not there are FACA considerations 
that would prevent Commissioner Ziglar from sitting down with 
our office, small businesses and really hammering out, in 
addition to the 10,000 comments that have been received by INS, 
a solution that preserves both the security of small business 
and the security of our country.
    Ms. Velazquez. Commissioner, would you be prepared to say 
that you will convene such a panel?
    Mr. Ziglar. Congresswoman, I am more than happy to do 
whatever makes sense in the context of getting the right input. 
Whether it is FACA or a panel or whatever makes sense, I am 
happy to do that.
    I just know I ran into this FACA thing on the entry/exit 
system, so I am, you know, a little sensitive to trying to 
reach out to industry, and now we have all these crazy--we have 
all these rules. Excuse me.
    Ms. Velazquez. You said it. I did not say it.
    Chairman Manzullo. I want to make sure that that remark, 
crazy, gets into the record.
    Ms. Velazquez. Mr. Commissioner, is that a yes?
    Mr. Ziglar. Yes. I am more than happy to do whatever makes 
sense. This panel thing, I know nothing about it other than 
what I have just been told.
    Ms. Velazquez. I would like for Mr. Sullivan to explain to 
the witnesses here and to me what type of recourse the people 
and the businesses that will be impacted by this proposed rule 
will have if we do not have a panel that really addresses some 
of the issues that have been raised this morning.
    Mr. Sullivan. I think what we have heard today through the 
statements of small business owners and trade associations is 
that if the rule is implemented without the degree of certainty 
that is necessary as written then there may not be recourse 
other than a severe detrimental financial effect to small 
businesses.
    What we have heard from the Commissioner right now is very 
encouraging, and that is to go beyond the letter of the rule 
making process, which can be bureaucratic, and sit down with 
interested groups so that we can hammer out a less burdensome 
solution.
    I know that after hearing the Commissioner's personal 
commitment to do that and also hearing of that commitment 
within the government that his word constitutes a significant 
movement in a direction to appease small business concerns.
    I am pleased that he is going to be responsive to small 
business interests and I am also pleased that he is going to be 
responsive and report back regularly to this Committee on how 
we have progressed.
    Ms. Velazquez. I just want to make it clear that if nothing 
happens in terms of putting together a process, a panel review 
process, for these businesses to be able to discuss and for the 
agency that proposed the rule to understand and to conclude 
that indeed there is not going to be an economic impact or not.
    We do not know based on the testimony that we heard; if 
nothing happened where we put together a vehicle for this to be 
clarified that there is indeed a legal recourse for those 
businesses that will be impacted.
    Mr. Ziglar. Congresswoman, I just want to make it clear 
that I am one member of a big Administration. You certainly 
have my expression of willingness to deal with this. I cannot 
just on my own commit to any particular format, but certainly 
whatever powers of persuasion I have, I will attempt to make 
sure that that happens.
    Ms. Velazquez. Well, I just want to mention here that when 
the Administration came out with the prescription drug card, 
community pharmacists all over the country raised a red flag, 
and they said they would be impacted.
    When a vehicle was not proposed for them to be able to 
present their case or make their case, they went to Court. Then 
there was a judicial decision made to that effect. What we are 
following here is the letter of the law regarding SBREFA.
    Mr. Sullivan. Congresswoman, I would like to respond to 
your original question, because I feel as though I have not 
been completely responsive. You asked what the legal recourse 
is, and the legal recourse is to challenge a rule in Federal 
Court that the agency's decision was made arbitrarily or 
capriciously.
    Now, I think that what we have heard both from myself and 
from the Commissioner is that we would not like for it to get 
to that point because, as we know, it is a lengthy and 
expensive process when you go through this type of litigation, 
which does not necessarily immediately help the purposes of 
INS, this rule, and the economic security of small business.
    I think what you have heard is the commitment from both of 
us to sit down and try to put aside bureaucratic processes and 
administrative legal actions and work through this so that we 
have a good solution.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Manzullo. Thank you.
    Mr. Grucci.
    Mr. Grucci. Thank you, Mr. Chairman. I do not know if you 
can hear me or not, but I will try anyway. First, let me just 
thank you for your leadership on this issue and Ranking Member 
Velazquez for her leadership on this.
    I just need to comment. An 18,068 page document? I guess it 
takes the brightest minds inWashington to come up with a 
concise document like that.
    Chairman Manzullo. If the gentleman would yield? The 
proposed regulation I think is four or five pages, but it is 
part of an 18,068 page document.
    Mr. Grucci. That is correct. The Federal Register. Right. 
Thank God for Reagan's Paper Reduction Act, or this thing could 
have swelled to 18,070 pages. It could have really gotten out 
of control.
    Ms. Velazquez. It seems, Mr. Chairman, that it did not 
work.
    Mr. Grucci. Reclaiming my time, Commissioner, first let me 
applaud you for your quick action on behalf of the INS to take 
up the issue of who comes into our country very seriously and 
try to make our borders safe.
    I would like to address this issue from a different 
direction if I may, and I hear what this esteemed panel has 
been saying. I have been fighting the fight with the travel 
agencies on an issue that I believe to be very important to the 
small businesses. It is, our five major airlines decided 
unilaterally to reduce their commissions to the airlines--to 
the travel agencies; I am sorry--and all at the same time 
keeping their own on-line travel agent going and paying them 
commissions.
    I think that is wrong. They received a hell of a wallop, 
and the Members of Congress got a sucker punch, I believe. That 
being said, the industry has expressed their concerns here 
today about being able to continue to go forward.
    The issue of the length of stay may have some relevance to 
being able to thwart another attack, but I believe, as I heard 
one of the speakers say, that to me it would make more sense to 
put that effort, that energy, that money and that time into 
tracking, detection, research.
    Yesterday I attended a technical seminar given by one of 
the corporations in my district, Symbol Technology, who is part 
of a consortium to come up with a whole new tracking 
methodology for visas, for passports, et cetera. It was an eye 
opener the technology that sits out there.
    We are not talking about having to reinvent the wheel. We 
are talking about taking systems that are currently out there 
and readapting them for current use. That would seem to make a 
lot of sense to me.
    The elimination of the length of stay from 60 days down to 
30 days. If someone is going to come in there----
    Chairman Manzullo. Six months.
    Mr. Grucci. I am sorry. Six months down to 30 days. If 
somebody is going to come here to do some damage, they are 
going to come, and they are going to get in here, and they are 
going to do it. Certainly it only took a matter of hours for 
our airlines to be used as weapons of mass destruction, and 
someone conceivably could have fit in that 30 day window of 
opportunity that is now being proposed.
    We have situations where our borders are porous, that 
people are flowing through undetected without any visas. I have 
extended an invitation. I know circumstances have arisen on a 
number of occasions that prevented you from visiting the 
district that I represent to demonstrate to you firsthand some 
of the problems that we have with the illegal immigration, the 
amount of people that are in a community that is just 
deteriorating the community and tearing it apart.
    I would like to extend to you another opportunity for you 
or a deputy of yours to come to visit the district. I would 
hope that we could arrange a date. I understand the incidences 
that happened in the past have got in the way of that, and I do 
not fault you for that, but I would like at the conclusion of 
this hearing to have a moment of your time to confirm a time 
when we can get together. I think it is important that you see 
the issue firsthand.
    Do you believe that by doing this six months to 30 days is 
a better approach than trying to tighten up our borders by 
preventing the illegal immigrants from coming in and putting in 
a stronger and a more advanced tracking mechanism so that we do 
not impact the tourism industry?
    There are good people that do come to this country. We do 
not want to prevent them from coming. We do not want to stop 
them from getting here, and we do not want to impact them to a 
point where they say listen, it just does not make any sense.
    I do not believe that a great deal of people come 
specifically to stay in my district, but they certainly come to 
visit New York, and they come and they spend time out in my 
district. My area is kind of an afterthought of New York City. 
After they go to the city and they see all the great things 
there are in the city, they come out and look at the wine 
areas. They come to the beaches. They spend several weekends 
out in our tourism area.
    That is good for our tourism industry. I would hate to see 
that evaporate because people feel that they have a limited 
amount of time to spend in the United States. And say I will 
take my money and my time, and I will go elsewhere in the 
world.
    I would like to hear your thoughts on addressing the issue 
of detection and tracking versus collapsing the time coming 
into the country.
    Mr. Ziglar. Congressman, let me articulate my vision of how 
we ought to be doing this business. I rarely get a chance to do 
this in a hearing because it is so specific questions.
    My vision of this is that our borders start a long way away 
from our physical borders. They start out there in some country 
that has a name. There are people there who want to come into 
the United States. They go to the consular, unless they are a 
visa waiver. They go to the consular office to get a visa.
    Now, what we need to have is intelligence information that 
is available at that consular office that says that this is 
someone that we do not want to give a visa to. That is where it 
starts is good intelligence that is shared with all of the 
points of contact that these people may have and all the law 
enforcement agencies.
    Let us take the 19 hijackers. There was at the time they 
got their visas no intelligence information on them, so they 
got to the port of entry, and they came into the United States. 
Fifteen of them came in on B-2s, three of them came on B-1s, 
and one came on an F, I believe it was. Fifteen of those 
people, including Mohammed Atta and Alshehri, came in here on 
B-2s. They were granted automatically six months to stay in the 
United States.
    Now, we do not have an effective entry/exit tracking 
system. We do not have yet and we do not yet have an effective 
student tracking system. We are putting both of those in place.
    We do have the I-94 process, which is very effective on 
counting who is coming in, but we miss 15 percent of them on 
the way out. Even though it is fairly paper based, it is in a 
database, so we do have a way of figuring out when people are 
here and most of whom leave when they leave, but it is slow. It 
is getting better.
    I am absolutely committed to bringing together all of these 
technological resources so that we have information available 
at every point that it needs to be available. It is not just 
INS information. It is FBI, CIA, Department of State, NSA, 
whoever it happens to be, that we have a profile of these 
people in terms of I do not mean profiling, but who are these 
people that are coming here.
    In any situation that you have, there are going to be 
people that we do not have any intelligence information about. 
They may be young. They may have avoided the law, but they are 
here withan intent to do something. Mohammed Atta and those 
guys came in here, and they had six months to be in this country. They 
did not concoct that conspiracy overnight. That conspiracy was 
concocted over a long period of time. They ran under the radar screen.
    Under this new proposal, what the intent of it is from a 
security point of view is to do several things. Number one is 
that when people get here and they want to come to the United 
States, our inspectors ask them a question, and that is what is 
the purpose of your trip, and how long do you intend to be 
here.
    Now, legitimate travelers do not have a problem with that, 
I do not believe. They say okay, I am coming to see Aunt 
Tillie, and I am going to be here six weeks. Well, in the 
normal course of things under this new regime we would probably 
give them two months. We always try to give a little bit 
additional like on business visas than they ask for.
    If somebody comes here and says oh, gee, I do not know. I 
am just coming to the U.S., and I am going to hang out around 
here. I do not have any intention of where I am going or where 
I am staying. That is where the 30 day default provision comes 
in.
    In the case of a guy or people like Mohammed Atta and those 
kind of people, I think, frankly, that is a good rule, but from 
an enforcement----
    Mr. Grucci. If I may, Commissioner? If you are going to ask 
that question and you are going to get an answer like that, to 
me that would send up a huge red flag. Maybe this person ought 
not to be given access at all until we find out exactly what 
they are going to do. Why default to 30 days, let the person in 
for 30 days and then see what they are going to do?
    Mr. Ziglar. Well, Congressman, maybe I was being a hair 
facetious. The fact is that a lot of people come to this 
country and say I just wanted to come to the U.S. I want to 
travel around. I do not really have any particular time frame 
that I want to leave, but I know I have six months.
    In a case like that, then our inspectors will ask a lot of 
additional questions. I mean, our inspectors by virtue of the 
500 million people they see every year, they get a second sense 
about people, and that is when we put them in a secondary. If 
we are not asking them questions, but we are just by default 
under the law giving them six months, we have a lot less 
eyesight on who these people are. That is part of this.
    It also has an enforcement element to it, and that is that 
that person who comes in here and gets 30 days, if they stay 
past 30 days they are in overstay status. Now, if they have six 
months and we have some concern about them--they are here, but 
they are in status--it is hard for us to do anything. If they 
are going to throw themselves out of status, then we have a 
grounds if we have some concerns about them to go pick them up 
and send them elsewhere. We have that.
    We believe that this new rule--not a 30 day rule, but the 
new rule--also will facilitate the beginning of our entry/exit 
system implementation. We believe that it is creating the 
transition area for us to do the entry/exit.
    I think also that if we have regulations that say when you 
come here you have to state why you are here and how long you 
are going to be here, I think that has a deterrent effect. That 
makes people understand that if they are legitimate that is not 
a problem, but it is a deterrent effect. It says that the 
United States is serious about knowing who is in our country 
and the conditions under which they come.
    I doubt very seriously that Joe Six Pack out there----
    Mr. Grucci. I do not think it is the questions that are 
creating the problem, if I may. I do not think it is the 
questions of asking who are you, where do you come from, what 
are you going to do and how long you are going to stay here 
that is the issue.
    The issue to me seems to be that we are not doing a good 
enough job, and I believe that you will agree. We are not doing 
a good enough job in stopping the illegal immigrants from 
coming in.
    We have taken great steps, I believe some of it at your 
direction, to divide the INS into sections and to strengthen up 
areas, and I would hope that that would at least give us an 
agent that we can get into the New York area that can come out 
and do enforcement, instead of being told that we do not have 
anybody that could come out and take a look at illegal 
immigration.
    It just seems to me that the issue, in using your own 
example that our borders start in some far off land with a 
different name, that we ought to have the intelligence on that 
person before they even come to apply for the visas.
    If we knew that when someone applied for a visa hey, this 
is a bad guy, we better not let this person in if there is some 
tracking taking place by the CIA or the FBI or the Coast Guard 
or some other agency or even your own agency, then it does not 
matter if it is a 30 day, 60 day, 90 day or 120 days that they 
are allowed.
    If this person is a bad guy and we could capture that bad 
guy by just asking a few questions, then it seems like we 
should be able to beef up our intelligence network and our 
information gathering system to even prevent that person from 
getting the opportunity to apply for a visa.
    Chairman Manzullo. Mr. Grucci, let me go to Mr. Issa here 
to make sure everybody has an opportunity.
    Mr. Grucci. Thank you, Mr. Chairman.
    Mr. Issa. Thank you, Mr. Chairman.
    Commissioner, I am going to follow up directly on Mr. 
Grucci's start and just do a little arithmetic calculation. We 
have 8.5 million, according to the U.S. Census, overstays, 
illegals, all of them combined, people who are not supposed to 
be here that we estimate are here. We did that on a recent 
census.
    That means we had 19 bad guys who murdered 3,000 Americans, 
but for each one of those we have 447,368 people that could be 
bad, but we do not know because we do not know where they are. 
We just know that that is the estimated amount of undocumented 
people in this country, most of whom commit no crimes. That 
gives me kind of the whole question.
    You know, I very much support the fact that you are taking 
action, and I know in this town that if you do not want to be 
criticized, do nothing, and you can usually get away with it, 
so I do not want to overly criticize you on putting up the 
concept of a 30 day default. I do think, during the process, if 
you hear the kinds of things you heard here today, you will be 
much more in doubt about ``when nobody asks for any more, give 
them 30 days''.
    Certainly I would agree that if someone says I just want to 
come here and spend a week that giving 30 days is reasonable. 
The question is if somebody says I want to come here, and I 
want to stay for an indeterminative period of time up to six 
months. I am going to go see this sight and this sight and this 
sight.
    Then I happen to support this panel that probably, unless 
you have research that has been reasonably done, that you 
probably ought to give it to most people because of the 447,000 
plus people that you are not even addressing, and the tens of 
millions of people who come to this country just to be here on 
vacation, snowbirds in not just Florida, but in Arizona and in 
California, it would be a problem. They would like to say I am 
going to stay here until the weather warms up. Therefore, you 
know, I would like more than a month.
    Mr. Ziglar. Yes.
    Mr. Issa. Having said that, I would like to dovetail 
further on this whole question of outside the borders, at the 
borders, inside the borders and ask you a question that rises 
from thatimmigration reform and is still pending to the breakup 
of the INS versus the Border Patrol and I guess now the switch to 
Homeland Defense being in your hierarchy.
    The secondary checkpoints that are in my district in San 
Clemente and Temecula, I believe, are no longer needed or not 
effective. We sometimes disagree on some of these points. How 
much do they cost to operate with those 270 personnel, at least 
one of whom could potentially be looking for criminal aliens in 
Mr. Grucci's district?
    Mr. Ziglar. Congressman, I am sorry. I do not have the 
budget figures on that particularly. I did not anticipate this 
sort of question in preparing for those kind of numbers, but I 
will be glad to get it to you.
    Mr. Issa. Well, I am going to give you just the 
opportunity. My staff has been requesting that for more than 
two months and has not been able to get it.
    This afternoon at 2:00 p.m., INS witness Joseph Green will 
testify in front of the Immigration Border Security and Claims 
Subcommittee, of which I am on. I would appreciate it if the 
information could be there at that time after several months of 
official requests and not getting it.
    I support Mr. Grucci's very statement and I think some of 
the other statements that yes, we will go along with you I am 
sure on reasonable changes that include perhaps some form of 
shortening for people who say I am only coming for a week. Give 
him 30 days.
    I do not think in the end, after your evaluation of 
comments and criticisms, that there will not be a tendency by 
all of us here, all of us in the small business community, to 
try to accommodate this initiative of yours because in fact we 
should not just punish people who try to have solutions that 
may help.
    At the same time, to believe that with 8.5 million 
undocumented people in this country that we do not know where 
they are, many of whom came in and overstayed months or years 
ago, that 270 people waving 200,000 people a day through a 
checkpoint knowing that one in 20 of those is an undocumented 
worker and only catching ten per checkpoint per day is the 
solution.
    I hope that just as we are working with you, and the small 
business community wants to be supportive as much as possible, 
that you also will look at these other areas and give us the 
safety we could get if we removed thousands of criminal aliens 
every year instead of necessarily concentrating on the same old 
game of well, this being a deterrent.
    As someone who is a border region congressman, to say it is 
a deterrent to put 270 people 70 miles inside our country and 
say that is deterring when there are 8.5 million people north 
and east of them, I have to ask you to please re-evaluate that, 
and I would very much appreciate getting the cost figures so we 
can begin evaluating the cost effectiveness of that.
    With that, I yield back the balance of my time, Mr. 
Chairman.
    Ms. Velazquez. I just would like to ask the Commissioner. 
Out of the 19 hijackers, how many were illegal or undocumented?
    Mr. Ziglar. Well, they all came in legally. At the time 
that it happened, I believe three of them were out of status. I 
believe that is correct. Three of them were out of status, 
overstays.
    Mr. Issa. And one was incarcerated.
    Mr. Ziglar. Well, then you have to go with 20. Yes. Right.
    Chairman Manzullo. Mr. Commissioner----
    Mr. Ziglar. By the way, could I add one thing?
    Chairman Manzullo. Of course.
    Mr. Ziglar. Of that 8.5 million estimate, and there are 
various estimates, of course, out there, approximately----
    Mr. Issa. I only took the census from the United States 
Census. I do not have a better one. I happen to think it is a 
lot higher, but my opinion is more subjective.
    Mr. Ziglar. Well, I am just saying there are a lot of 
estimates. That is one that you recited.
    Our estimate is that about 40 percent of that 8.5 million 
are people who came here in overstay status, as opposed to 
people who came across the border illegally, so they came here, 
were inspected and then put themselves in overstay status.
    I think one of the reasons that we suggested this 
regulation was that we believe it does have a deterrent effect 
on the overstay part of that component.
    Mr. Issa. If I could have the indulgence of the Chair? I 
want to support that concept because I do believe that when 
someone is encouraged to just kind of hang around for six 
months when they came in just saying they wanted to stay a week 
and see Auntie that you may very well be right. At the end of a 
month they begin working. They begin working somewhere for 
cash. They begin transitioning into being more of an overstay.
    That is where I want to be very supportive, of not 
announcing any initiative as dead on arrival until we look at 
the tradeoffs, but I think, having gotten the governor before I 
left, the point is that there are large groups of people who 
regularly ask for, have valid reasons and should be granted far 
more than 30 days, and we recognize that there is a middle 
ground that I very much hope when you are looking at the 
proposed rule versus the final rule that you would make those 
adjustments.
    At the same time, you have a huge job on your plate in 
other areas, and I think this Committee and the small business 
community and the American people want to be supportive to find 
out how we can help you with the 8.5 million, which may rise or 
fall, based on your initiatives, a few million, but will still 
always be a lot bigger than 19 or 20.
    Mr. Ziglar. Congressman, the intent of this regulation is 
not to stick everybody with 30 days, as I have said a hundred 
times. That person that comes in on a visa and says, you know, 
I want to tour the United States and I may be here two or three 
months, the next question is okay, give us an idea of where you 
want to tour.
    You know, based upon the questioning they will give them a 
three month admission period or whatever happens to be fair and 
reasonable for the purpose of the trip. That is the whole 
purpose of the regulation.
    Chairman Manzullo. Mr. Highfield is shaking his head. Would 
you respond to that question and answer?
    Mr. Highfield. Yes. Thank you, Mr. Chairman. I, too, 
represent a little, tiny business person, and I can tell you 
that I grew up in Pontiac. The questions that they asked when I 
would go across to go drinking in Windsor, okay, when it was 18 
years old across the way----
    Chairman Manzullo. Are you talking about the rib place just 
over the border?
    Mr. Highfield. Right.
    Chairman Manzullo. Okay.
    Mr. Issa. What did they ask when you came back is the 
question.
    Mr. Highfield. We knew the great questions and the great 
answers to give. Quite frankly, from a practical standpoint for 
those that have been doing it, these type of question things 
are, quite frankly, a crock.
    If you are going to allow people to come in, just give them 
a defined reason. We are renting a campsite for five months in 
Corpus Christi. Okay. Here it is. Okay. Give us six months.
    This 30 day thing is just impractical. I used to go back 
and forth across the border hearing all that stuff all the 
time. This kind of stuff will have absolutely no effect except 
to slow it down, and once in a while if you get a person who is 
a little grouchy and the INS inspector or theCustoms person 
does not like it, boom. He is going to give him the shaft. That is the 
only way it works.
    I am sorry about speaking English, but that is the bottom 
line. Let us be practical.
    Chairman Manzullo. I did not mean to get into your 
fraternity days.
    I have a couple more questions, and that is just for 
clarification. Am I correct in saying that the requests for 
extensions do not apply to Canadians? Is that correct?
    Mr. Ziglar. The way it works is because of the special 
status that Canadians have----
    Chairman Manzullo. Right.
    Mr. Ziglar [continuing]. They would come in without an I-
94, which means that they would in effect default to six months 
so that if they wanted to stay additional beyond that six month 
period then they would have to seek an extension, but that is 
the way it is now, Mr. Chairman.
    Chairman Manzullo. The cost of travel is in the thousands. 
We did some research. A tourist class airfare from Warsaw to 
Chicago is around $2,000. From Bombay is about the same. I say 
that because we have a lot of Poles and a lot of Indians in our 
congressional district.
    Let me just give the experience of Carol Weineke again who 
has been through this hundreds, if not thousands, of times. She 
is the person in my office who does the actual immigration work 
that is the expert as far as I am concerned.
    Her question, which is mine, is with the cost of travel in 
the thousands of dollars, individuals when they arrive soon 
discover there is much to see and at that point realize more 
time is needed. This is Mr. Amrine's statement and Mr. 
Highfield's. To file an extension today takes 60 to 125 days to 
adjudicate with a cost of over $100 to make the application to 
extend.
    Coming from a person who actually assists my constituents 
in the extension process, what we are submitting to you today 
is the extension requests that you will have if this proposed 
regulation goes into effect, there will not be enough federal 
employees in the United States at every single agency to begin 
to handle those adjudications when today a lot of people are 
out of status between the time when their six months ends and 
they are waiting for an additional amount of time.
    My question goes to the statement that was made by Mr. 
McDermott that there really is not enough INS personnel. There 
could never be enough personnel in order to enforce this 
regulation.
    Mr. Ziglar. Mr. Chairman, let me make a couple of points. 
Part of it is good news, and that is that at two of our service 
centers we are down to 30 days for processing I-539s, which 
include extensions and other things.
    Chairman Manzullo. Does that include Chicago Service 
Center?
    Mr. Ziglar. The other two of them are at 60 days, and we 
hope to have them at 30 days, which would cover the entire 
country, within the next couple of months, so we are making 
some real progress on that.
    Now, on the question of extensions I have no quarrel, which 
has not really been talked about here, but I have no quarrel 
with a lot of the comments that have been made that the grounds 
for extension under the new regulation are far more difficult 
than they have been in the past, and I think that is something 
we clearly have to look at as an Administration.
    It is absolutely incumbent upon us at the INS that if we 
are going to have tighter rules that we have the processing 
ability to create those extensions or exceptions that are 
allowed by law. That is clearly a high priority issue for us at 
the INS.
    I believe that we will get this right. If it is not right 
now, we will get it right, and the burden on the INS will be 
minimal in the long term in terms of trying to reach those 
goals of processing.
    I am not quite sure if that answers your question.
    Chairman Manzullo. Well, it does except I think you are 
overly confident of the fact that there is going to be a 
tremendous amount of requests for extensions. There already is 
now. Carol has handled hundreds of these where people come for 
the very purpose of visiting the United States, and then they 
just want to stick around longer and spend their dollars.
    I have some other questions, but I want to yield to Ms. 
Velazquez.
    Ms. Velazquez. Mr. Chairman, just to follow on your line of 
questioning. Mr. Commissioner, what did we do in the 1980s? Did 
we not extend to six months precisely because of what the 
Chairman is describing here today?
    Mr. Ziglar. That is correct. Well, that is what they tell 
me. I was not around in the 1980s for this job, but I am told 
it was because of the backlogs that we have.
    Now, the other side of this is that we are trying to fix 
our system so that it is much more automated so that we can 
handle these kinds of requests at a much faster pace.
    Ms. Velazquez. I would like to have your optimism. You 
know, if in the 1980s we extended----
    Mr. Ziglar. In this job you have to be optimistic or you 
jump out the window.
    Ms. Velazquez. Mr. Commissioner, if in the 1980s we went to 
six months because we could not handle the backlog, how do you 
expect now that we are going to be able to have the resources?
    Mr. Ziglar. Congresswoman, I do not believe that if this is 
properly fashioned that we are going to have that much of a 
problem in terms of additional I-539s being filed with us.
    Chairman Manzullo. I wanted to ask a question. Mr. Issa, I 
will recognize you.
    Mr. Lewis, I would want to have your input on this. This is 
where I have problems. When you look at this proposed 
regulation, the whole purpose of it is aimed at fighting 
tourism. Tourism? Boy, is that Freudian. Fighting terrorism. 
You can tell where the heart of this Chairman is. That is 
correct. Fighting terrorism.
    I read on page 18,066 in the first paragraph it says, ``Why 
is the Service proposing to reduce the maximum admission period 
for B-1 and B-2 visitors from one year to six months?'' The 
answer, and I just cannot accept this answer. The answer says: 
``As previously noted, Service regulations at . . .'' and it 
gives the numbers, ``. . . currently provide that a B-1 visitor 
for business or B-2 visitor for pleasure may be admitted for a 
period of up to one year. As the attacks of September 11, 2001, 
demonstrated, this generous period of stay is susceptible to 
abuse by aliens who seek to plan and execute acts of 
terrorism.''
    I do not know who wrote this, but this is saying that if 
you stay another 90 days, you are going to devise your 
terrorism intent after you get here. The article in today's 
Post talked about these clowns on September 11th. They really 
started planning that stuff after the bombing of the embassies 
in Africa.
    [The information may be found in the appendix.]
    They are very sophisticated. They are very smart; so smart 
to the effect that even if the most sophisticated computers had 
been in effect only two of those guys would have been caught at 
the issuance of the visa stage because their backgrounds were 
clean.
    As I read this, somebody is going to do an act of terrorism 
that comes into the United States. He is still going to remain 
legal whether he asks for 30 days or whether he asks for six 
months because if he does not want to come under scrutiny he is 
going to play the game.
    I would like your comment on that and Mr. Lewis' comment on 
that.
    Mr. Ziglar. Mr. Chairman, I will go first. The regulation 
here goes much beyond terrorism.That reference obviously is a 
core reference, but the whole issue here of people coming to the United 
States under our very generous system and overstaying their stay or 
coming here and creating connections, being illegally employed and then 
overstaying, coming here and engaging in marriage fraud or document 
fraud. I mean, we have a problem that Congressman Issa mentioned, and 
that is that we have a lot of people here who are illegally here.
    This regulation is just one part of a lot of other things 
that we are attempting to do both at the INS and throughout the 
Administration not to deter people from coming here 
legitimately, but to have better eyesight on who is here and 
who comes, who stays and who leaves.
    I am not confused. I have come up to this body more times I 
think than any other Administration witness now, and it has 
been made pretty clear to me that people are not happy about 
the things that go on with respect to people coming into this 
country and overstaying their welcome and engaging in fraud and 
all of those sorts of things.
    This is just one of a holistic approach to trying to not 
deter tourists and not deter legitimate immigrants or any of 
that sort of thing, but to do things that most other countries 
do, and that is they have better eyesight on the people who are 
in their country for whatever reason they are here, whether it 
is tourism or whatever. It is a part of a long-term plan that 
it has been made clear to me by the Congress and particularly 
on the House side that that is what they expect, and they 
expect it yesterday.
    You know, if you are looking for a miracle in this area, 
you are going to have to look a whole lot higher up than where 
I am on the seventh floor of the INS, but I have to tell you. 
We are trying to do our best. You know, we do not always hit it 
just right on the nail on the head. Given the resources that we 
have or do not have and how strained we are and what we are 
trying to do, we are doing our best with what we have.
    Mr. Lewis. Yes, sir. Thank you. First of all, when you look 
at al-Qaeda, and I do not know that these documents have been 
publicly made available, but I know it has been stated that in 
the training manual that the al-Qaeda has there is a section on 
how you handle being interviewed for not only entry to a 
country, but also law enforcement stops, how you handle 
everyone else that might have cause or reason to interview. 
That is my concern about the interviews at the entry point once 
they have been given a visa.
    Secondly, you know, my heart goes out to INS. They have an 
enormous job to do. I keep going back to the screening process 
and the tracking once they are here. These individuals are 
trained in how to avoid detection. Again I go back to what this 
regulation will do, which I see many reasons for it, but it is 
in my mind not related to stopping terrorists.
    As far as planning goes, yes, it has been publicly stated 
now I guess in hearings yesterday that this al-Qaeda or the 
skyjackings and suicide attacks on the World Trade Center and 
the Pentagon, the planning process started in 1998 and in 
Germany for the most part.
    If you get into the local areas of what they might do here, 
yes, they do go out, and they look at different facilities. 
They photograph it, draw up schemes or schematics, and 
ultimately they look for some kind of blessing to attack that 
target. There could be as many as 30 ongoing sites that they 
are looking at or organizations, businesses, federal 
facilities, but they might only end up selecting one or two.
    I think that might be what the Commissioner, when he is 
talking about or when others are talking about what al-Qaeda 
does or terrorists--Hezbollah does the same thing--in a 
particular country. I hope that answers the question.
    Chairman Manzullo. Let us take two more short questions.
    We have some other responses. I am sorry. Go ahead. Ms. 
White?
    Ms. White. Not if you are still talking on terrorism.
    Chairman Manzullo. Hang on just a second. Let us get the 
mike in front of you so we can hear you.
    Ms. White. I was not really thinking about terrorism as 
such at this time. I am sorry. Maybe my question is out of 
place.
    I just feel that I am not getting an answer for my people. 
Our phone lines in our offices are ringing sometimes 25, 35 
times a day from Canadian people. I mean, a lot of these people 
are 50, 60, 70, 80, and they are worried.
    All they are seeing is what has been put out on the 
documents so far, and they are worried. They are scared. This 
is June. They will be planning whether they are traveling as 
tourists or not.
    It is nice to say that Canadians are not part of this, but 
there is nothing that we can really tell them. There is nothing 
in writing. There is nothing that we can really tell our 
people.
    They are scared to go to the border. If you are scared to 
do something and you are 75 or 80 years old, we have to buy 
insurance. We have to buy insurance for five or six months 
before we go. If we have to plan two months before we get to 
the border, then get there and are scared that somebody is 
going to say no, you cannot go for six months. We will only let 
you go for four.
    Chairman Manzullo. Ms. White, if I recall, the Commissioner 
said that this regulation does not apply to the Canadians to 
the extent of the extension. Is that correct, Commissioner? Did 
I hear that right?
    Mr. Ziglar. For Canadians, given the arrangement we have 
with them, they are not subject to the so-called I-94 process, 
which means that they come in for inspection and they have a 
date stamped on their I-94.
    In this case, they are not coming in being asked how long 
are you going to stay. It will fall back to the six month 
default period. After six months--I am sorry. The six month 
maximum stay period. After six months, if they want to stay 
they can file for an extension on the grounds that are in the 
regs.
    Chairman Manzullo. Okay. The request for the extension as 
to the Canadians would be the same as everybody else. It is 
only unexpected events, such as an event that occurs that is 
outside the alien's control and prevents the alien from 
departing the U.S., compelling humanitarian reasons, such as 
emergency continuing medical treatment.
    The fact that a Canadian may want to stay more than six 
months just to visit more or sun more, they would be ineligible 
under this proposed language. They would need to go back home.
    Mr. Ziglar. Mr. Chairman, as I said earlier, I share some 
concerns about the restrictive nature of the extension process. 
It is something that I feel like needs to be looked at very 
carefully.
    Chairman Manzullo. I appreciate your candor. Thank you.
    Mr. McDermott, you had a comment?
    Mr. McDermott. Just a particular comment, Mr. Chairman, 
with regard to----
    Chairman Manzullo. Could you pull the mike closer to you?
    Mr. McDermott. With regard to the issue that it is our 
opinion, my opinion from the perspective of the tourism 
industry and our western states group in particular, that the 
particular confusion with regard to the language having to do 
with fair and reasonable, as well as the 30 days, is where the 
real problem is centered around.
    In other words, visitors who are intending to be here for 
anything more than 30 days, and even those intending to be here 
for less and are not certain about what is going on, are 
fearful, as you heard Mrs. White say, that they are going to 
arrive at the border, they are going to arrive at theirentry 
point and then be interrogated, and then some INS agent is going to 
determine for them how long they can stay regardless of how long they 
wish to stay, intend to stay or whatever. Their plans could be 
terrifically disrupted.
    Now, it is that kind of fear on the parts of potential 
travelers and the parts of businesses such as tour operators 
and travel agents and so forth that are planning tours for 
folks that has the propensity to deter the visitation that, 
therefore, could so severely impact the tourism industry in a 
country that, by the way, has already been losing international 
tourism market share for the past several years since closing 
down our United States Travel and Tourism Administration. We 
are further exacerbating our situation because of the lack of 
clarity and the problems of communication that have already 
permeated this particular issue.
    We need to get clarification in the language as it pertains 
to Canadians in particular out there post haste, and then we 
need to get clarification as to exactly what does fair and 
reasonable mean in terms of what is going to happen to a person 
in terms of their interrogation at a border, at an entry point, 
and then, furthermore, what exactly would constitute necessity 
to be defaulted to 30 days.
    Chairman Manzullo. Let me make a suggestion. Mr. 
Commissioner, do you have it within your authority to give a 
simple letter to Ms. White that she could put up on the 
internet and send to all of her members that just states matter 
of fact that this regulation does not apply to them, and it may 
apply at the six month extension, but that six month extension 
would be a year off even thinking about it?
    Would that satisfy you, Ms. White, just something very 
simple?
    Ms. White. It would be very good.
    Chairman Manzullo. Is that possible? Could you work with 
her on that?
    Mr. Ziglar. Mr. Chairman, I cannot send that letter 
without--I mean, I cannot go to the restroom without getting 
OMB's approval, so I would have to go through them to clear the 
letter, but I certainly would try to do that.
    Chairman Manzullo. Let me make a suggestion. I am going to 
get very serious here.
    I would like a commitment to start those talks with a 
deadline to have that letter out in two weeks. If it is not out 
in two weeks, I may entertain a further hearing to bring you in 
and ask you to bring in your sleeping bags and your toothbrush. 
I am serious. We had to do this once before in order to effect 
a change for travel agents.
    I am not going to have our good friends in Canada, our 
number one trading partner discouraged from visiting America. I 
have been a member of the American-Canadian Inter-Parliamentary 
Exchange for ten years. I was the chairman for one year. The 
Canadians are so upset with this rule--I was just with them 
four weeks ago at our Inter-Parliamentary Exchange--that they 
have formed a task force among the Canadian MPs to figure out 
what they have done to offend the United States. That is how 
serious this is with our Canadian friends.
    I had to bring in Dr. Graham and the head of the SBA with 
the same threat. I am serious. This has to be taken care of 
immediately with the Canadians. I would ask that there be a 
letter that would be drawn and approved within two weeks or I 
can guarantee you I will take everything I can do here to 
compel the appearance and get that letter out. We cannot 
sacrifice hundreds of millions of billions of dollars because 
of bureaucratic change.
    If you need help with Dr. Graham and he will not talk to 
you, I will have both of you here at the same time, and you can 
discuss it in open court in order to get the thing done.
    Mr. Ziglar. I did not mean to suggest that OMB is a 
problem. I just said that I----
    Chairman Manzullo. They are a problem. They move slowly.
    Mr. Ziglar. I just said I cannot unilaterally with respect 
to something like this issue a letter.
    Chairman Manzullo. No. I understand, but what we have here 
on the table, and, as I said before, the purpose of this 
Committee is solutions oriented. The Canadians cannot wait for 
the rules to be promulgated.
    Ms. White is here testifying. We had a member of the 
Canadian Parliament who was going to testify, but because of 
technicalities Senator Grafstein could not come. That would 
have been the first time that a Member of the Canadian 
Parliament would have testified before a Committee of the 
United States Congress on how impacted and how offended the 
Canadians are over this particular proposal.
    I would suggest, and I am going to follow up on it, that 
Ms. White have within her hands some type of a directive. I do 
not care if it is an internal memo that you send to Mike behind 
you that somehow finds its way into my hands that I can send to 
her that has your initials on it. I am serious. We have to get 
creative here. People from Canada are there. These rules do not 
apply to the Canadians. I just hope we got that message out.
    Even something that simple that finds its way into my hands 
that I can give her, that will save a lot of angst and also 
create a lot of money that could be here in the United States.
    Would that help you out?
    Ms. White. Yes, certainly. We will not only put it on our 
website. We will make certain that all our Canadian press gets 
it as well.
    [The information may be found in the appendix.]
    Chairman Manzullo. Okay. There we are.
    Mr. Issa.
    Mr. Issa. Mr. Chairman, I might suggest that I think we in 
the hearing have a clear understanding from the Commissioner, 
based on hearing testimony, that in fact Canadians do have an 
automatic six month entry.
    I might suggest that we pose that understanding in the form 
of a letter which we can, of course, make available to all the 
panel members at this time, and then subject them to permission 
from Mitch Daniels, or whoever it has to be, a response that 
would come back in a timely fashion.
    I think today we could publish something for the record in 
the form of an understanding which we send as a letter that 
already says what we believe we heard here. I think that would 
go a long way with Members of Congress clearly understanding 
that. To be honest, if it comes back incorrect, we are the body 
that could make changes necessary to make it correct.
    Mr. Ziglar. Mr. Chairman, could I respond to that?
    Chairman Manzullo. Of course.
    Mr. Ziglar. I do not mean to sound bureaucratic, but I also 
am a lawyer.
    Mr. Issa. We forgive you.
    Mr. Ziglar. I have been recovering for 22 years. The word 
automatic is not a right word. That is assuming. The 
regulations are this way now. That is assuming that a Canadian 
is otherwise admissible to the United States.
    The way it would be now is they would go to the six months. 
I just want to make that clear that we are not all of a sudden 
saying everybody from Canada, even if they are not admissible, 
can come in.
    Mr. Issa. So the letter or the memo really should say that 
nothing has changed under U.S. law with regard to the 
Canadians?
    Chairman Manzullo. That would be the easiest thing for the 
Canadians with the exception of that request for an extension.
    Mr. Ziglar. Yes. Well, the six month total--in effect, that 
is right.
    Chairman Manzullo. At least the first six months.
    Mr. Ziglar. You would have to explain it carefully.
    Chairman Manzullo. The first six months.
    Mr. Ziglar. Right. Yes.
    Chairman Manzullo. Okay. I mean, I would be willing to work 
with you on a one sentence thing like that, or perhaps there is 
something.
    Mr. Issa. Our lawyers and your lawyers can get together----
    Chairman Manzullo. Yes.
    Mr. Issa [continuing]. And create the letter necessary to 
be clear and concise.
    Mr. Ziglar. No, no, no. We will keep lawyers out of this so 
it will be understandable.
    Chairman Manzullo. Then I have to get out of it. If we 
could work with your assistant, Mike, who was in our office 
yesterday, on drafting something very simple that perhaps could 
fly by the OMB that we could get, then we have your assurance 
that you would work closely with us on that?
    Mr. Ziglar. Sure.
    Chairman Manzullo. Thank you.
    Mr. Issa. Mr. Chairman?
    Chairman Manzullo. Do you have a question?
    Mr. Issa. I actually have a question.
    Chairman Manzullo. Okay.
    Mr. Issa. That part was helping with yours. Now this is 
mine.
    Chairman Manzullo. Okay. You have a question and Mr. Grucci 
had a final question. Is that it? Okay.
    Mr. Issa. Yes. I think we will be quick. Sort of as a wrap 
up question, Mr. Commissioner. If I understand correctly, you 
are now very aware, at least as a result of this hearing, of 
the balance between the revenue that we receive and the huge 
amounts of taxes that are gleaned from tourism. And I am going 
to assume it is far greater than the amount of money necessary 
for you to improve your office in other ways that would not 
stifle tourism, with the knowledge that Congress supports you 
and can give you alternatives that keep that revenue coming in, 
thus paying for the programs of interior enforcement that you 
need. Hopefully that will be considered in your rule making in 
this process.
    The other one is purely a concern, and that is that I hope, 
and I hope I will get a response here today, that those other 
things which are being floated around that affect your 
department that basically say if you are Saudi, if you are 
this, if you are that, we are going to put you in a special 
category of high risk and, therefore, we are going to say we do 
not want this group of tourists or this group of tourists, this 
group of investors, this group of investors.
    I would hope that in light of what we did to Americans of 
Japanese descent in World War II, you would recognize that, 
notwithstanding our special relationship with certain countries 
that are longstanding and unrelated to anything other than 
large traffic and other relations, but with those who are 
generally in the pot of all other nations I would hope be color 
blind, religious blind, nationality blind, and that in all of 
your rule making, that would be made extremely clear.
    I must admit that there have been a few ideas floated, and 
they have been all over the paper, that essentially say 1.1 
billion Muslims need not apply and that they will somehow be 
further scrutinized. Currently the Syria limitations, basically 
shutting them off, indicate a direction that way.
    I would hope I would hear today that that is an anomaly and 
certainly not the direction you plan on going.
    Mr. Ziglar. Congressman, as you know, I have made the 
statement several times, and I will expand it a little bit, 
that it was evil, not immigrants, and I will expand it to say 
it was evil, not immigrants and tourists, that caused September 
11.
    As you also know, I am the resident libertarian around 
here, so I am a free trader, and I am all of those things that 
I always felt was a classic Republican, as opposed to 
otherwise, so I struggle with these kinds of things every day 
probably way too much for my own emotional health at times, but 
I understand where you are coming from, and I share that view.
    Chairman Manzullo. Mr. Grucci.
    Mr. Grucci. Thank you. Commissioner, I just want to ask a 
quick question on your intentions now with hopefully the 
restructuring of the INS taking place.
    Mr. Ziglar. Which one, Congressman?
    Mr. Grucci. Well, hopefully it is somewhere in those 18,068 
pages.
    In all seriousness, the enforcement side of the INS. What 
are we doing at, A, the borders and, B, once someone does 
penetrate our borders? In my region on Long Island, for 
example, I have been grappling with this issue, and I might get 
a little parochial now if I may.
    For a number of years, when I was the town supervisor there 
I tried to get an INS representative to come out and discuss 
the issue with me. You know, the person chuckled on the other 
end of the phone and said you want me to come out to your town? 
I am one person, and I have this entire region. They explained 
the entire region that they have to cover. There was absolutely 
no way that one person could deal with all of that.
    Are we sending more inspectors out onto the streets? Can I 
get inspectors to come out to my District to take a look at the 
problem to see if indeed we could round up some illegal 
immigrants and send them back home? Those that are legal that 
belong here and deserve to be here, leave them alone. The 
situation is just boiling to the point where there may not be 
lynchings today. I cannot guarantee that going forward.
    Mr. Ziglar. Congressman, let me give you some statistics, 
some facts, so you will understand the dimension of the problem 
that we face.
    I currently have roughly 1,920 investigators worldwide. We 
are authorized around 2,100, as I recall. We are having a huge 
attrition problem throughout INS just like everybody else is 
primarily because of the Transportation Security 
Administration's ability to pay more money, but I have 1,922.
    Roughly half of those are now still committed to working 
exclusively with the FBI on the terrorist investigations, so 
that gives me down to let us say roughly 1,000. I then have 
about 300 that are by prescription of the Congress dedicated to 
certain things like quick response teams and some other things, 
so I am down to 700 special investigators worldwide.
    Our priorities, and obviously with terrorism we have the 
1,000 over there already. Our priorities are, number one, 
rounding up criminal aliens, and there are a lot of them out 
there, then breaking up smuggling rings, then doing 
investigations on fraud and other kinds of things, and then 
after that we get down to the enforcement, if you will, of 
situations like you describe where there is not a criminal 
alien or smuggling and that sort of thing.
    We have run out of investigators a long time before we ever 
got down to that priority. It is really a matter of resources 
as to where we can put our people at this point. I hate to poor 
mouth, and I always used to say yes, you know, I have heard 
that before, but then I look at the numbers, and I realize if I 
am going to meet the priorities.
    Now, I will say this in defense of the INS. Way before I 
got there they had asked for a substantial increase in 
investigators, special agents, to do this kind of work. They 
have uniformly not gotten it.
    I mean, INS, by the time it gets through the process, we 
get, you know, maybe 20 percent of what we really think we need 
over the history. I have studied the history. I mean, we are up 
against the wall in terms of having resources to do the kinds 
of things that are regarded as interior enforcement.
    Mr. Grucci. I do appreciate your problem, but it does not 
help me with the problem that I have.
    Mr. Ziglar. I understand.
    Mr. Grucci. Out of those 700 people, if you could just send 
two my way for a couple of weeks and just let them do a sweep 
of the area, I think that that would go a long way in helping 
relieve a major problem.
    Chairman Manzullo. Perhaps you could work out an earmark 
for the INS.
    Ms. Velazquez. Yes. On Long Island we have beautiful 
landscape. You might run into the risk of not knowing who is 
going to cut your lawn or wash the dishes in the restaurant.
    Mr. Grucci. Reclaiming my time, I will tell you who cuts my 
lawn, and it is not an illegal immigrant. I can assure you of 
that.
    Ms. Velazquez. It was a joke. Mr. Commissioner, before we 
adjourn I just would like to know. I know that you said to me 
when I asked you in terms of addressing the serious concerns 
about the economic impact that the proposed regulation is going 
to have on the tourism industry you said that whatever it 
takes, and I took that as a way to say to us that you are 
committed yourself to convene a meeting with those 
representatives and your office. What would be the time frame 
for such a meeting?
    Mr. Ziglar. Well, soon. I do not have my schedule in front 
of me, but I would suggest that we can do that in the next week 
or two.
    Ms. Velazquez. Okay. If you can inform this Committee, I 
would ask, you know, that he submit to us a report of such an 
effort.
    Chairman Manzullo. I just want to thank all the witnesses 
here for a really good hearing. As I said at the beginning of 
our hearing here in Small Business, the reason we have one 
panel is to have interaction among the people who propose the 
regulations and those who are impacted by it.
    Commissioner Ziglar, you have done a marvelous job, an 
exemplary job, of defending a very difficult regulation; not 
that I accept all of your answers on it, but they are given 
with a good heart, with a good spirit, with an honest mind, 
with a person who has a sincere desire to serve this country, 
from a person who has obvious integrity and a person who, in my 
opinion, is probably the best person for the job under these 
very difficult circumstances.
    You have a full understanding of the business impact on 
this. You have a compassion for people. You have the right 
attitude. You took a job that is very difficult, coming into it 
knowing you would have to appear before Congressional 
Committees.
    I just want to commend you for your statesmanship and the 
way you have answered these questions and for your candor and 
for your dedication to public service.
    As to the rest of the members of the panel, I think you 
share with me the insights that we have learned about the every 
day life of a commissioner and also his openness and 
willingness to work with the business community, especially 
with the tourism industry.
    I also appreciate the long range view as to what INS needs 
to do. I am glad that we provided a forum for you. I wish that 
C-SPAN were here because that message has to get out.
    I trust that within the next week or so that we can work 
together very diligently to quell as much misinformation as 
possible and to work towards a very quick amelioration of the 
misinformation so that the tourists can come to our country and 
spend lots and lots of money.
    This Committee is adjourned.
    Mr. Ziglar. Thank you, Mr. Chairman.
    [Whereupon, at 12:50 p.m. the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 81127A.001
    
    [GRAPHIC] [TIFF OMITTED] 81127A.002
    
    [GRAPHIC] [TIFF OMITTED] 81127A.003
    
    [GRAPHIC] [TIFF OMITTED] 81127A.004
    
    [GRAPHIC] [TIFF OMITTED] 81127A.005
    
    [GRAPHIC] [TIFF OMITTED] 81127A.006
    
    [GRAPHIC] [TIFF OMITTED] 81127A.007
    
    [GRAPHIC] [TIFF OMITTED] 81127A.008
    
    [GRAPHIC] [TIFF OMITTED] 81127A.009
    
    [GRAPHIC] [TIFF OMITTED] 81127A.010
    
    [GRAPHIC] [TIFF OMITTED] 81127A.011
    
    [GRAPHIC] [TIFF OMITTED] 81127A.012
    
    [GRAPHIC] [TIFF OMITTED] 81127A.013
    
    [GRAPHIC] [TIFF OMITTED] 81127A.014
    
    [GRAPHIC] [TIFF OMITTED] 81127A.015
    
    [GRAPHIC] [TIFF OMITTED] 81127A.016
    
    [GRAPHIC] [TIFF OMITTED] 81127A.017
    
    [GRAPHIC] [TIFF OMITTED] 81127A.018
    
    [GRAPHIC] [TIFF OMITTED] 81127A.019
    
    [GRAPHIC] [TIFF OMITTED] 81127A.020
    
    [GRAPHIC] [TIFF OMITTED] 81127A.021
    
    [GRAPHIC] [TIFF OMITTED] 81127A.022
    
    [GRAPHIC] [TIFF OMITTED] 81127A.023
    
    [GRAPHIC] [TIFF OMITTED] 81127A.024
    
    [GRAPHIC] [TIFF OMITTED] 81127A.025
    
    [GRAPHIC] [TIFF OMITTED] 81127A.026
    
    [GRAPHIC] [TIFF OMITTED] 81127A.027
    
    [GRAPHIC] [TIFF OMITTED] 81127A.028
    
    [GRAPHIC] [TIFF OMITTED] 81127A.029
    
    [GRAPHIC] [TIFF OMITTED] 81127A.030
    
    [GRAPHIC] [TIFF OMITTED] 81127A.031
    
    [GRAPHIC] [TIFF OMITTED] 81127A.032
    
    [GRAPHIC] [TIFF OMITTED] 81127A.033
    
    [GRAPHIC] [TIFF OMITTED] 81127A.034
    
    [GRAPHIC] [TIFF OMITTED] 81127A.035
    
    [GRAPHIC] [TIFF OMITTED] 81127A.036
    
    [GRAPHIC] [TIFF OMITTED] 81127A.037
    
    [GRAPHIC] [TIFF OMITTED] 81127A.038
    
    [GRAPHIC] [TIFF OMITTED] 81127A.039
    
    [GRAPHIC] [TIFF OMITTED] 81127A.040
    
    [GRAPHIC] [TIFF OMITTED] 81127A.041
    
    [GRAPHIC] [TIFF OMITTED] 81127A.042
    
    [GRAPHIC] [TIFF OMITTED] 81127A.043
    
    [GRAPHIC] [TIFF OMITTED] 81127A.044
    
    [GRAPHIC] [TIFF OMITTED] 81127A.045
    
    [GRAPHIC] [TIFF OMITTED] 81127A.046
    
    [GRAPHIC] [TIFF OMITTED] 81127A.047
    
    [GRAPHIC] [TIFF OMITTED] 81127A.048
    
    [GRAPHIC] [TIFF OMITTED] 81127A.049
    
    [GRAPHIC] [TIFF OMITTED] 81127A.050
    
    [GRAPHIC] [TIFF OMITTED] 81127A.051
    
    [GRAPHIC] [TIFF OMITTED] 81127A.052
    
    [GRAPHIC] [TIFF OMITTED] 81127A.053
    
    [GRAPHIC] [TIFF OMITTED] 81127A.054
    
    [GRAPHIC] [TIFF OMITTED] 81127A.055
    
    [GRAPHIC] [TIFF OMITTED] 81127A.056
    
    [GRAPHIC] [TIFF OMITTED] 81127A.080
    
    [GRAPHIC] [TIFF OMITTED] 81127A.081
    
    [GRAPHIC] [TIFF OMITTED] 81127A.082
    
    [GRAPHIC] [TIFF OMITTED] 81127A.083
    
    [GRAPHIC] [TIFF OMITTED] 81127A.084
    
    [GRAPHIC] [TIFF OMITTED] 81127A.085
    
    [GRAPHIC] [TIFF OMITTED] 81127A.057
    
    [GRAPHIC] [TIFF OMITTED] 81127A.058
    
    [GRAPHIC] [TIFF OMITTED] 81127A.059
    
    [GRAPHIC] [TIFF OMITTED] 81127A.060
    
    [GRAPHIC] [TIFF OMITTED] 81127A.061
    
    [GRAPHIC] [TIFF OMITTED] 81127A.086
    
    [GRAPHIC] [TIFF OMITTED] 81127A.087
    
    [GRAPHIC] [TIFF OMITTED] 81127A.088
    
    [GRAPHIC] [TIFF OMITTED] 81127A.089
    
    [GRAPHIC] [TIFF OMITTED] 81127A.064
    
    [GRAPHIC] [TIFF OMITTED] 81127A.065
    
    [GRAPHIC] [TIFF OMITTED] 81127A.066
    
    [GRAPHIC] [TIFF OMITTED] 81127A.067
    
    [GRAPHIC] [TIFF OMITTED] 81127A.068
    
    [GRAPHIC] [TIFF OMITTED] 81127A.069
    
    [GRAPHIC] [TIFF OMITTED] 81127A.070
    
    [GRAPHIC] [TIFF OMITTED] 81127A.071
    
    [GRAPHIC] [TIFF OMITTED] 81127A.072
    
    [GRAPHIC] [TIFF OMITTED] 81127A.073
    
    [GRAPHIC] [TIFF OMITTED] 81127A.074
    
    [GRAPHIC] [TIFF OMITTED] 81127A.075
    
    [GRAPHIC] [TIFF OMITTED] 81127A.076
    
    [GRAPHIC] [TIFF OMITTED] 81127A.077
    
    [GRAPHIC] [TIFF OMITTED] 81127A.078
    
    [GRAPHIC] [TIFF OMITTED] 81127A.079
    

</pre></body></html>
